<html>
<title> - MINE RESISTANT AMBUSH PROTECTED (MRAP) VEHICLE PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-75]
 
         MINE RESISTANT AMBUSH PROTECTED (MRAP) VEHICLE PROGRAM

                               __________

                             JOINT HEARING

                               before the

              SEAPOWER & EXPEDITIONARY FORCES SUBCOMMITTEE

                          meeting jointly with

                    AIR AND LAND FORCES SUBCOMMITTEE

                                 of the

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 19, 2007

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     


                   U.S. GOVERNMENT PRINTING OFFICE
37-890 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                   GENE TAYLOR, Mississippi, Chairman
NEIL ABERCROMBIE, Hawaii             ROSCOE G. BARTLETT, Maryland
RICK LARSEN, Washington              TERRY EVERETT, Alabama
MADELEINE Z. BORDALLO, Guam          JO ANN DAVIS, Virginia
BRAD ELLSWORTH, Indiana              J. RANDY FORBES, Virginia
JOE COURTNEY, Connecticut            JOE WILSON, South Carolina
KIRSTEN E. GILLIBRAND, New York      BILL SHUSTER, Pennsylvania
JOE SESTAK, Pennsylvania

                                 ------                                

                    AIR AND LAND FORCES SUBCOMMITTEE

                   NEIL ABERCROMBIE, Hawaii, Chairman
JOHN SPRATT, South Carolina          JIM SAXTON, New Jersey
SOLOMON P. ORTIZ, Texas              HOWARD P. ``BUCK'' McKEON, 
SILVESTRE REYES, Texas                   California
ADAM SMITH, Washington               JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ELLEN O. TAUSCHER, California        FRANK A. LoBIONDO, New Jersey
ROBERT A. BRADY, Pennsylvania        TOM COLE, Oklahoma
JIM MARSHALL, Georgia                ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
HANK JOHNSON, Georgia                CANDICE S. MILLER, Michigan
JOE SESTAK, Pennsylvania             PHIL GINGREY, Georgia
GABRIELLE GIFFORDS, Arizona          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                GEOFF DAVIS, Kentucky
                                     W. TODD AKIN, Missouri
                  Will Ebbs, Professional Staff Member
                 Heath Bope, Professional Staff Member
               Jenness Simler, Professional Staff Member
                    Jason Hagadorn, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, July 19, 2007, Mine Resistant Ambush Protected (MRAP) 
  Vehicle Program................................................     1

Appendix:

Thursday, July 19, 2007..........................................    51
                              ----------                              

                        THURSDAY, JULY 19, 2007
         MINE RESISTANT AMBUSH PROTECTED (MRAP) VEHICLE PROGRAM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Abercrombie, Hon. Neil, a Representative from Hawaii, Chairman, 
  Air and Land Forces Subcommittee...............................     3
Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Seapower and Expeditionary Forces Subcommittee.........    13
Saxton, Hon. Jim, a Representative from New Jersey, Ranking 
  Member, Air and Land Forces Subcommittee.......................     6
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     1

                               WITNESSES

Brogan, Brig. Gen. Michael, Commander, Marine Corps Systems 
  Command, U.S. Marine Corps.....................................    11
Castellaw, Lt. Gen. John, Deputy Commandant for Programs and 
  Resources, U.S. Marine Corps...................................    10
Speakes, Lt. Gen. Stephen M., Deputy Chief of Staff, Army G-8, 
  U.S. Army......................................................    12
Young, Hon. John J., Jr., Director, Defense Research and 
  Engineering, Director, MRAP Task Force.........................     8

                                APPENDIX

Prepared Statements:

    Bartlett, Hon. Roscoe G......................................    55
    Castellaw, Lt. Gen. John.....................................    70
    Young, Hon. John J., Jr......................................    59

Documents Submitted for the Record:

    Attachment 1--Multiple MRAP Vehicle Variants.................    81
    Attachment 2--MRAP Vehicle Program Joint Requirements........    83
    Attachment 3--MRAP Vehicle Requirement.......................    85
    Attachment 4--MRAP Vehicle Program Funding Overview and Cost 
      Estimate Update............................................    86

    Attachment 5--Mine Resistant and Ambush Protected (MRAP) 
      Vehicle Program, Master Joint Production Schedule..........    88
    Attachment 6--Production, Integration, & Delivery Times......    89

Questions and Answers Submitted for the Record:

    Mr. Shuster..................................................    93
         MINE RESISTANT AMBUSH PROTECTED (MRAP) VEHICLE PROGRAM

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Seapower and Expeditionary Forces 
            Subcommittee, Meeting Jointly with Air and Land 
            Forces Subcommittee, Washington, DC, Thursday, 
            July 19, 2007.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
room 2118, Rayburn House Office Building, Hon. Gene Taylor 
(chairman of the Subcommittee on Seapower and Expeditionary 
Forces) presiding.

 OPENING STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. The committee will come to order.
    Today, the Seapower and Expeditionary Forces Subcommittee 
joins the Air and Land Forces Subcommittee in open session to 
receive testimony concerning our number one priority: the 
safety of American service men and women serving in combat in 
Iraq and Afghanistan.
    This hearing is focused on the procurement of the Mine 
Resistant Ambush Protected Vehicle, MRAP. The MRAP family of 
vehicles offers significant protection for the troops from 
mines and improvised explosive devices (IEDs) exploding under 
their vehicle. This is due to increased ground clearance and, 
most importantly, to a V-shaped undercarriage which helps 
channel the force of the blast away from the vehicle.
    Make no mistake; this is not just another hearing on a 
Department of Defense program experiencing difficulty in cost 
and schedule. This is a hearing concerning the life and death 
of our soldiers, sailors and Marines serving in Iraq.
    I have not been satisfied with the response of the Bush 
Administration to the force protection needs of our troops. In 
fact, I see this as the fourth verse of a really stupid song.
    The first verse was that not every trooper needed the best 
body armor. The Guard and Reserve don't need it because they 
are going to be in the back lines. And only after people died 
needlessly did every trooper get the small arms protective 
inserts (SAPI) plates.
    The second verse was on up-armor, that not every vehicle 
needs to be up-armored. And then the requirement was set 
artificially low. And for those of you who don't talk 
Department of Defense (DOD), the requirement was a number that 
the Department of Defense came up with as to how many vehicles 
that left the bases would be armored, and the DOD repeatedly 
told us that they had met requirement, only for the moms and 
dads to needlessly lose their kids when we found out the 
requirement wasn't 100 percent of the vehicles; it was at 
different times 20 percent, 40 percent, 60 percent, and then 
only belatedly 100 percent.
    The third was with jammers, the same thing. For this 
member's second trip to Iraq in December of 2003, shortly being 
going there, the DOD very kindly showed me that I was going to 
be protected with something called a jammer. It was an 
electronic device to jam the signal of an improvised explosive 
device so that it would not detonate when the vehicle I was in 
passed by. And I remember asking, ``Great. What about the 
troops?'' ``Oh, they are expensive. They are very expensive. We 
don't know if we can afford them for everybody.''
    So, once again, the third verse of this song was the 
civilian leadership of the DOD set an artificially low number 
percentage of vehicles that would be protected with these, and 
then they classified the number so that members of this 
committee could not even tell the American people how 
artificially low that number was. And only after people died 
needlessly was a requirement set at every vehicle.
    Even now, troops training to go to Iraq and Afghanistan 
don't even see a jammer until they get to Iraq or Afghanistan. 
And just this week when I posed that question to an Under 
Secretary of Defense and the head of the Joint Improvised 
Explosive Devices Defeat Organization (JIEDDO) Task Force, I 
was told that, ``Well, that is not so. You see, the regular 
soldiers do see a jammer before they get to the theater. It is 
just the Guardsmen and Reservists who don't.''
    I grew up in the Deep South, and I vividly remember double 
standards. They were wrong then; they are wrong now. If the 
regular Army troops can train with a jammer before they get to 
Iraq, then we sure as heck want to see to it that those 
Guardsmen and Reservists who are training right now at Camp 
Shelby, Mississippi, and other places around our country get it 
as well.
    And, Mr. Young, I would hope that you would take that 
message back to the Secretary of Defense, that that is totally 
unacceptable, and that is a conversation that took place this 
week. And, by the way, the vast majority of funerals that I 
have been to have been from Guardsmen and Reservists.
    So this is the fourth version of this really stupid song, 
and that is, ``Yes, there is a technology available to save 
young people's lives, but it is expensive.'' You know, we keep 
hoping this war will wrap up, so do we really want to buy this 
vehicle that is going to save lives because, if the war ends, 
then we are going to be stuck with them?
    Well, that is contrary to what the President of the United 
States is telling people. He is telling people that we are 
going to be in this war as long as he is President, and there 
is a pretty good chance that the person who replaces him will 
feel the same way. After all, as a teenager, I remember a guy 
running for President who had a secret plan to end the war in 
Vietnam--not to win it, to end it--and if I recall correctly, 
his secret plan took over four years.
    So there is a pretty good chance another Presidential 
candidate will come along with another secret plan to end 
another war, and it could well take four years. And if that is 
the case, the idea that kids will be traveling around Iraq in 
vehicles that expose them to death is totally unacceptable, and 
if it is just a matter of money, then let's fix it.
    So, again, we have a very distinguished panel here. I have 
laid out my thoughts. But I want to tell you that I am like 
every American who read that USA Today story this week. I am 
absolutely appalled at how long this program has taken, that 
troops in the field requested these vehicles, according to 
published reports, starting in 2004, here we are in 2007, and 
that even today, after the secretary of defense correctly came 
back and said, ``I will reprogram some funds to put about 
another thousand of those vehicles in Iraq,'' that we still 
only have now a target of about 7,700 vehicles when there are 
over 17,000 vehicles to be replaced.
    So my message to you, gentlemen, is you tell us how much 
you need, and then tell us how quickly you are going to do it, 
and for God's sake, don't come up with some artificial number-
called requirement if that number is one less than every 
vehicle that is going to leave the gate in Iraq or Afghanistan.
    I now yield to the Ranking Member of the Air and Land 
Subcommittee, Congressman Abercrombie.

   STATEMENT OF HON. NEIL ABERCROMBIE, A REPRESENTATIVE FROM 
       HAWAII, CHAIRMAN, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Abercrombie. Thank you, Mr. Chairman.
    I want to associate myself with your opening remarks, but I 
think, particularly in relation to your concluding commentary, 
I want to take the opportunity to put some figures out there 
and I hope this will be helpful to you. It is not going to 
sound like it is, but it should give you some sense of 
direction with respect to what both committees are having to 
come to grips with as we try to combine the Defense 
Authorization bill and the Appropriations bill, and you will 
notice I say ``we.'' This is not being done by party or by 
ideology.
    The list of the Department of Defense programs experiencing 
cost, schedule, and performance difficulties is lengthy. That 
is not the issue. This program had a nearly 50 percent increase 
in cost in 3 months. That is one of the things you are going to 
have to come to grips with to try and assist us to be able to 
make good decisions. It really does very little good to have 
public pronouncements about the Congress trying to micromanage, 
let alone macromanage, either warfighting or preparation for 
war if the Congress cannot even get basic information to make 
decisions to enable us to provide for the armed forces.
    I think that bears repeating. This program had a nearly 50 
percent increase in cost, not in numbers. It is not the 
question of the change in the numbers. We can accept that. In 
fact, we have been dealing with it. Some of you gentlemen that 
are here before us now have briefed us in classified closed 
briefings about numbers changing, and I think it is fair to say 
without revealing anything that no member of these committees 
has ever indicated that that was of particular difficulty in 
the sense of us trying to come to grips with it as committees 
in terms of recommendations either for authorization or 
appropriation.
    But in 90 days, the costs that we were trying to associate 
with the change in numbers of vehicles that would be needed 
have increased 50 percent from $8 billion to $12 billion. This 
issue of course, is about the protection of men and women in 
uniform, not budget overruns, and as Chairman Taylor has 
indicated, we will do whatever it takes to meet their needs. 
But we have to know what it is we are dealing with, and we have 
to rely by definition on what is presented to us as to what the 
foundation for our deliberations is supposed to be.
    From day one of this Congress, these committees have said 
to you, ``Tell us what it will take to deal with the Mine 
Resistant Ambush Protected vehicles, known as MRAPs. We will 
provide you the money you need.'' That has just been reiterated 
by Chairman Taylor.
    In February, the budget requested by the Pentagon was $4.1 
billion short of what the Pentagon said it would take to fund 
the MRAP Vehicle Program. I can tell you that Mr. Saxton and I 
tried to, as our part of the proposition, then deal with that 
funding shortfall by reallocating funds for which we were 
severely criticized. That comes with it, I understand, but we 
were criticized for reallocating funds out of some programs in 
order to try and meet the readiness requests that had been made 
to us since February and which were not accounted for in the 
budget proposals that were given to us.
    I am taking some time with this because not everybody 
necessarily understands what the hearing is all about and why 
we are having it today and why we feel the necessity of having 
it. We have been trying to come to grips with this, and, again, 
I emphasize ``we.'' This has not been a partisan endeavor, and 
we made a good faith attempt--at least the committee over which 
I chair and share responsibilities with Mr. Saxton and the 
other members--in our authorization proposals to come to grips 
particularly with the MRAP budget difficulties in our 
reallocation recommendations. We provided at that time an 
additional $4.1 billion.
    There are many questions about MRAP--why the Pentagon did 
not get started earlier, why we can't produce what we need 
faster, is there more commonality on vehicle configurations--
all of which we have to come to grips with, particularly if 
this is to be a joint program.
    Now I am mentioning this now because I am going to give you 
some statistics which you have given to me which are 
contradictory and make it much more difficult for us to come to 
grips with this.
    Our first question is: What can we do to help you get this 
done faster?
    The committees stand ready to provide the necessary 
resources to adequately fund the program. As I indicated, it 
was our committee that first provided the necessary $4.6 
billion in authorization required at the time of the House 
Armed Services Committee to mark up and fully fund the known 
vehicle requirements of 7,774 vehicles for fiscal year 2008.
    Having made it clear that we intend to support you in 
fielding the MRAPs, we want to make it clear we expect to be 
kept informed on the status of the program. Based on some of 
the information that we have been given, and which I will share 
with you in a moment, I hope you are getting better information 
than I am getting or that the committees are getting.
    One day, we are told that the number of MRAP vehicles 
delivered in June was 78--this was delivered to me--I will 
enter this into the record, Mr. Chairman, with your 
permission--the Mine Resistant and Ambush Protected Vehicle 
Program Master Joint Production Schedule as of the 16th of 
July, 2007: total planned, 97; total actual, 78.
    On the 17th of July, the next day, I get--again, this is 
not stuff I am making up. I asked to be kept apprised of the 
production schedule--Vehicles on Order Production Schedule as 
of 17th of July, 2007. It says that the monthly delivery has 
been 165. On the 16th, it is 78. On the 17th, it is 165.
    I am bringing this up not to say, ``I gotcha'' or ``I 
caught you.'' That is not what I am doing. I am trying to 
figure out what do I tell the rest of the committee members we 
need to do? How do we make this work? There is a huge 
difference between 165 and 78. And on top of that, we get a 
projection that is as of June, the end of June. Then we get the 
projection. We jump from 165 to 250, then 197, 254, going all 
the way up to February of 2008. We expected to have 926 
vehicles a month coming out.
    How am I to recommend that we operate on this schedule if 
we cannot even get a difference accounted for between 165 
vehicles and 78 vehicles?
    Then on the cost, this is the MRAP Vehicle Program Funding 
Overview, the official overview, as of July 9th for the 7,774 
vehicles that we have been dealing with up to this point. We 
are not even dealing with the 17,000 or the 23,000 or anything 
like that now. This is the schedule, the Vehicle Program 
Funding Overview. It says that $3.9 billion has been funded to 
date, $8.2 billion cost to complete.
    I went back. So then I took a look to see, well, okay, what 
was it up to this time? I went back to June. It said in June, 
$4.4 billion have been funded to date, $7.7 billion needed to 
complete. We actually apparently lost half a billion dollars 
somewhere from the middle of June to the middle of July, and 
the cost went from $7.7 billion to $8.2 billion.
    Now maybe it did. I don't know. Maybe, you know, you have 
better figures, but how am I supposed to make a recommendation 
with respect to the funding if from one month to the next I 
cannot even get the figures of what you actually have to date? 
I mean, it is very difficult, if we cannot even agree on how 
much money has come to date, to then go to the Appropriations 
Committee, let alone to the rest of the authorization 
committees that we have responsibility to here, to figure out 
what kind of money to recommend.
    This is particularly difficult if we are trying in good 
faith to meet the readiness needs that you have right now for 
the warriors in the field, in the actual deployment. Surely you 
can understand my difficulty. I am not trying to create 
difficulties. I am trying to state the difficulties we have in 
coming to grips, if I cannot even get the basic amount of money 
that has been funded so far and coordinate that with the actual 
production that has taken place so far, let alone trying to 
project the money that is going to be needed and the vehicles 
that we might likely be able to expect.
    I had--in good faith again--tried to put together a chart 
of our own so that I could give it to the members of the 
committee, the funding requests versus the fiscal year 2008 
requirements, authorizations and appropriations, and I will not 
enter this into the record because I gave up. I could not 
figure out how to put down anything that would make sense to 
the memberships on four basic things: what the requirements 
were, what the authorization was, what the appropriations 
needed to be and what was requested.
    Now that is pretty simple. I mean, it is basic stuff that 
we have to deal with here in order for any of the members to 
make a reasonable decision. As a result of the material given 
to me to aid and assist me in this presentation today, I could 
not put together a chart to show those four basic things that I 
could give to the members that made any sense.
    So my point is that we need to understand--and I do 
understand, believe me--the MRAP vehicle is no silver bullet. I 
am not trying to make some kind of a bad analogy there. We 
understand the difficulties associated with the vehicle in 
terms of protection for troops. You know, there is no Harry 
Potter here. We are not deluding ourselves on that regard. We 
know what the limitations of the vehicles are. But, again, we 
are operating on the basis of your good faith in presenting to 
us that, given our technology and our capacity to manufacture 
and so on, this is the best presentation that we can make with 
regard to trying to protect our troops.
    It does appear, at least in this member's judgment, as a 
result of what has been presented to us, that this vehicle can 
increase the survivability--or the variations on this vehicle. 
There are at least three that I have been able to come up with 
that can increase survivability and operational effectiveness 
for our military personnel in Iraq, Afghanistan and elsewhere. 
Obviously, we owe it to them to field this capability as fast 
as possible.
    And, Mr. Chairman and members, I apologize to you for the 
length of my presentation, but I hope you understand why I am 
doing it, because I want to inform you as fully as I can as to 
what we have been going through and what the staffs have been 
going through.
    Yes, we owe it to them to field the capability, but unless 
and until we can get from you accurate information upon which 
to base our decisions, we cannot adequately be prepared, let 
alone make the kind of recommendations to the Armed Services 
Committee and the appropriators as to what we should do in the 
immediate, let alone the long run.
    Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Abercrombie.
    The chair now recognizes the Ranking Member of the Air and 
Land Subcommittee, the gentleman from New Jersey, Mr. Saxton.

  STATEMENT OF JIM SAXTON, A REPRESENTATIVE FROM NEW JERSEY, 
        RANKING MEMBER, AIR AND LAND FORCES SUBCOMMITTEE

    Mr. Saxton. Thank you, Mr. Chairman.
    I think it is very timely that we are having this hearing 
today. So thank you both for calling the hearing.
    To our witnesses, thank you for being here today. We 
appreciate it very much. We look forward to hearing your 
testimony, and I am sure I can say on behalf of every member of 
the committee we appreciate very much your service to our 
country.
    Mr. Young, congratulations on your nomination. I know that 
it is a great time for you to look forward to a new position, 
and I hope you enjoy it as much in the future as you enjoy 
having received the nomination.
    As you know, the Secretary of Defense announced this week 
that he has asked Congress to approve a shift of $1.3 billion 
to the MRAP Program in order to accelerate production between 
now and the end of the year, and, of course, we will support 
anything that helps our soldiers and Marines on the front line.
    It is my understanding that the long pull in the path to 
maximizing production is at the supplier base level not at a 
prime contractor level. I look forward to hearing the details 
on this issue.
    And thank you again for being here.
    And, Mr. Chairman, if I may ask unanimous consent at this 
time that Mr. Bartlett's statement be placed in the record.
    Mr. Taylor. Without objection.
    [The prepared statement of Mr. Bartlett can be found in the 
Appendix on page 55.]
    Mr. Taylor. Well, gentlemen, again, we appreciate you being 
here--all of you.
    Secretary Young, you bring a great deal of expertise to the 
table, and, again, we are expressing our frustration that we 
feel like people have died needlessly, and for you gentlemen in 
uniform, we very much appreciate your lengthy service to our 
Nation, your commitment to our Nation. I personally don't think 
the problem is within the uniformed ranks.
    I think, quite frankly, it is the civilian side of the DOD 
that isn't getting the message, that isn't doing their job, but 
you are the ones who are called to on a day-to-day basis to 
help make this happen, and we hope we will hear from you how 
this is going to happen and how it is going to happen quickly.
    So the chair would now like to introduce: the Honorable 
John Young, the Director of the Defense for Research and 
Engineering as well as the Director of the MRAP Vehicle Task 
Force; Lieutenant General John Castellaw, United States Marine 
Corps, Deputy Commandant for Programs and Resources; Brigadier 
General Michael Brogan, United States Marine Corps, Commanding 
General of the Marine Corps Systems Command and Program 
Executive Officer for the Joint MRAP Program; Lieutenant 
General Stephen Speakes, United States Army, Deputy Chief of 
Staff, Army programs and requirements.
    Secretary Young, you are recognized.
    Secretary Young, it is the tradition of this committee to 
allow the witnesses to speak for five minutes. Given the 
importance of this, I am going to ask unanimous consent that we 
waive that. We would hope that you would keep in mind that at 
some point we will have votes, but given the importance of what 
you have to say and what all of these gentlemen have to say, I 
am going to ask unanimous consent that we waive the five-minute 
rule.
    Without objection.
    The secretary is recognized.

  STATEMENT OF HON. JOHN J. YOUNG, JR., DIRECTOR, DEFENSE AND 
      RESEARCH AND ENGINEERING, DIRECTOR, MRAP TASK FORCE

    Mr. Young. Mr. Chairman, I recognize the importance of your 
questions. I don't think I will have a problem with the rule.
    But to both chairmen, the distinguished members of the 
subcommittees, thank you for the opportunity to appear before 
you to discuss the Mine Resistant Ambush Protected Vehicle, or 
MRAPs. The committee hearing is well-timed. There are some new 
developments for us to talk with you about, and I assure you we 
are prepared to provide as much information. I believe we can 
clarify some of the issues that were raised, and we want to do 
that.
    We are here, as you know, bringing all the Department of 
Defense's resources to bear on accelerating the delivery of 
MRAP vehicles and deploying them to our troops as quickly as 
possible.
    The secretary of defense has made the MRAP Program his top 
priority. On May 30th, Secretary Gates directed establishment 
of an MRAP Task Force with one objective: get as many of these 
vehicles to our soldiers and Marines in the field as possible 
in the next several months. The task force has met five times 
and briefed Secretary Gates three times.
    The task force first looked at the availability of 
materials and parts to ensure accelerated production was 
possible. With Secretary Gates' approval, the Defense 
Department has taken specific actions to purchase MRAP tires 
and steel to avoid shortages or impacts on other programs. The 
task force team members have also reviewed an industrial 
capacity to produce steel, axles, engines and other components 
of these vehicles.
    With key supply issues evaluated, the task force discussed 
with industry the potential to produce more MRAP vehicles 
sooner. Roughly three weeks ago, I asked the senior leaders of 
each MRAP industry team to evaluate their respective ability to 
build even more vehicles during calendar year 2007 either using 
a design on contract or partnering with another industry team.
    The senior leaders of these industry teams are now 
confident that they can build more MRAPs in 2007. In these 
discussions, I told them I believed I had assurance from 
Secretary Gates we would find any and all dollars necessary to 
purchase these vehicles.
    To be clear, in virtually every case, the MRAP companies 
will face challenges in increasing their rates of MRAP 
production, which means qualifying suppliers, increasing 
supplier manufacturing capacity, hiring and training workers 
and adding manufacturing facilities. This is an extremely 
aggressive program, and the Defense Department is accepting 
risk here.
    As the chairman noted, facts about the program change every 
day, and an element of that is a good thing because people are 
moving to move this program forward every day. We may encounter 
manufacturing, spare parts and maintenance issues as we 
accelerate, but Secretary Gates and the entire Defense 
Department leadership team agreed we should accept these risks 
in order to provide more capable vehicles to our troops as 
absolutely fast as possible.
    The task force and the MRAP Program Office reviewed the 
industry acceleration plans and recommended an acceleration of 
the MRAP production to Secretary Gates this past Friday. 
Secretary Gates directed the Department to act on this 
recommendation. Our key point to you today is that we are 
submitting an urgent reprogramming action to the Congress to 
purchase additional MRAPs.
    Using all remaining available funds provided by the 
Congress and a $1.2 billion reprogramming, the Defense 
Department will be able to order an additional 2,650 MRAPs. 
Roughly 1,500 of these MRAPs will be delivered from industry to 
DOD by 31 December. The department will increase our total 
number of MRAPs on order to 6,415 and will increase our 
expected calendar year 2007 deliveries from industry to us to 
3,900. The reprogramming is urgent. Thirty to 45 vehicles are 
estimated per day to slip into 2008 if we delay.
    The use of available funds and the reprogramming action 
will give the MRAP Joint Program Office a total of $5.4 billion 
to put on contract for MRAPs in 2007. This level of funding 
makes MRAP the third largest 2007 DOD acquisition program 
behind Missile Defense and the Joint Strike Fighter.
    Eighty-two MRAPs were delivered in June. Let me make an 
important point here. Significant numbers of MRAPs are now 
being delivered for three reasons. The MRAP Joint Program 
Office leaned forward and awarded limited production contracts 
in some cases to vendors. Two, our industry partners assumed 
success and purchased materials and established limited 
production capability using their own corporate funds. And, 
three, the Congress provided robust funding for the MRAP Joint 
Program Office in the supplemental.
    Before the task force was created, there was already 
aggressive work on MRAP by a capable government team. Paul Mann 
and the supporting team in the MRAP Joint Program Office have 
done Herculean work to get vendors under contract, to 
orchestrate testing and to negotiate production contracts.
    The MRAP Joint Program Office and industry are moving 
extremely quickly to buy vehicles as fast as we can check only 
the key boxes: testing against improvised explosive devices, or 
IEDs; road tests with soldiers and Marines; and establishment 
of production facilities and processes. We are not delaying 
manufacture of these vehicles for documentation, extended 
testing and test reports. This is not a business-as-usual 
process.
    Key to this testing is the exceptional and dedicated work 
done by Colonel Rooney and the team at the Army's Aberdeen 
Proving Ground. The Aberdeen team has worked almost constantly 
for the last six months to test and evaluate MRAP candidate 
vehicles.
    Finally, a number of government facilities are supporting 
the program, including the Space and Naval Warfare Systems 
Center Team in Charleston which is installing the government 
furnished equipment.
    The combination of a strong Joint Program Office, a 
dedicated test team, supporting government teams and industry 
partners who took risks with their own funds has resulted in 
the delivery of vehicles from this program and the potential to 
provide more capable safer vehicles to our deployed soldiers 
and Marines.
    Additionally, the leadership of the Marine Corps and Army 
has worked with tremendous collaboration. In one recent task 
force meeting, the respective service leaders agreed to 
purchase common equipment items for their MRAPs, reducing the 
complication of having completely service-unique items 
installed on different MRAPs.
    I have seen tremendous coordination, collaboration and 
cooperation all in an effort to achieve the goal this team 
shares with Secretary Gates: urgent delivery of the maximum 
number of MRAPs to put this capability in the hands of our 
forces. The reprogramming action allows the department to 
continue and expand the work on improving the current MRAP 
vehicles and also to ensure that we can provide the best 
possible equipment in the future to our forces in harm's way.
    The current MRAP designs we are buying are not a panacea, 
and the threat will adapt and adjust, and the Army and Marine 
Corps team will work to anticipate these steps and develop 
responses. The fact that increasing quantities of vehicles are 
being delivered today is a result of the tremendous work by the 
Joint Program Office, industry and the support the Congress has 
provided. The reprogramming action is the next critical step 
for this program and for the department's urgent efforts to get 
MRAP vehicles into the field.
    Thank you, again, very much for your support in helping us 
to get MRAP vehicles to the soldiers, sailors, airmen and 
Marines who need them, and I look forward to your questions.
    [The prepared statement of Mr. Young can be found in the 
Appendix on page 59.]
    Mr. Taylor. Thank you very much, Secretary Young.
    The chair now recognizes Lieutenant General Castellaw.

  STATEMENT OF LT. GEN. JOHN CASTELLAW, DEPUTY COMMANDANT FOR 
           PROGRAMS AND RESOURCES, U.S. MARINE CORPS

    General Castellaw. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Members, members of the committees, I 
think we all share Congressman Taylor's passion for ensuring 
that our soldiers and Marines, sailors and airmen get the 
equipment they need.
    I attended an event last night that I thought was quite 
remarkable. We had the annual dinner for the Marine Corps 
Association, and the guest speaker was the secretary of 
defense, Mr. Gates, and during that meeting and during his 
presentation, he matched Congressman Taylor's passion in terms 
of talking about the needs and his obligation to those military 
members that are in combat.
    I think the Marine Corps has been in the lead in terms of 
pushing to get this equipment out. I talked to Major General 
Walt Gaskin this morning. He has made all the preparations for 
these vehicles. He knows how he is going to use them, he knows 
how he is going to incorporate them into the forces that are 
over there, and he is expecting that we will provide them.
    For our part, the Marine Corps has identified the funding 
that we need to reprogram in this fiscal year, and we will 
continue to refine and identify the additional funding that we 
will need to reach the 3,700 vehicles that we see as being what 
the forces require.
    I ask that my statement be put in the record, and I 
appreciate the opportunity--not the pleasure, but the 
opportunity--to represent the Marine Corps and the men and 
women who make it up.
    Thank you, sir.
    [The prepared statement of General Castellaw can be found 
in the Appendix on page 70.]
    Mr. Taylor. Thank you very much, General.
    The chair now recognizes Brigadier General Brogan.

STATEMENT OF BRIG. GEN. MICHAEL BROGAN, COMMANDER, MARINE CORPS 
               SYSTEMS COMMAND, U.S. MARINE CORPS

    General Brogan. Chairman Taylor, Chairman Abercrombie, 
distinguished members of the subcommittees, I am honored to 
appear before you today and discuss with you the Mine Resistant 
Ambush Protected Vehicle Program.
    As the chairman indicated, I am the joint program executive 
officer for the program, and this morning, I represent a 
dedicated group of civilian, uniform and support contractor 
professionals who are working very hard to deliver these 
vehicles to our warfighters.
    Though many of them are from Marine Corps Systems Command, 
we have been supported by the Army's Tank-Automotive and 
Armaments Command, and by the Navy's Naval Space Warfare 
Command in Charleston. We are in contact with folks at Special 
Operations Command. We have representation from the Air Force. 
This truly is a joint effort.
    We are also very fortunate to get unprecedented support 
from the Defense Contract Management Agency to help us in the 
industrial capabilities assessment so that we can more fully 
grasp just how well our industry partners will be able to 
perform, the Defense Logistics Agency that is leaning forward 
to procure tires to ensure that that does not become a 
bottleneck in production, and the United States Transportation 
Command that currently is flying the vast majority of these 
vehicles into theater to get them there as expeditiously as 
possible.
    Even though it is repetitive, I would like to reiterate 
Secretary Young's salute to Colonel John Rooney, United States 
Army. His folks at Aberdeen Test Center are responsible for 
moving this program forward. He worked three shifts, 24 hours a 
day, 6 days a week and on the 7th day brought in a skeleton 
crew that would assist with the scheduling so that we could 
move up quickly the next week. Their efforts helped us 
determine which of the vehicle designs from among the competing 
contractors met the standard and that we could take forward 
into production.
    In addition, we would not be where we are today--and though 
I know it appears slow, 82 vehicles delivered last month--
without our industry partners. They are working hard to expand 
our production capacity. They are hiring new employees. They 
want to deliver these vehicles as rapidly as we want to procure 
them.
    There certainly still is much more to be done, and we are 
not over all the pitfalls, but we are making progress. We 
continue to work aggressively with the vendors to look for ways 
to speed what they are doing as well as with the folks in 
Charleston to speed the integration of the government-furnished 
equipment into the vehicles.
    This has been an unusual acquisition program. We had a 
dual-track acquisition strategy. If you recall, in November, we 
awarded a sole-source contract to the one vendor who had a hot 
production line so that we could keep him in production and 
continue to get his product.
    At the same time, we issued a request for proposals. From 
that came nine competitively awarded contracts with an initial 
delivery order of four test articles, and even before we 
finished the test, gentlemen, ladies, we awarded some Low Rate 
Initial Production contracts at risk based on our evaluations 
of the proposals, their industrial capacity, in the belief that 
we could get them started producing vehicles even before we 
tested them so that we could jumpstart the process.
    Subsequently, we have begun awarding additional delivery 
orders on those contracts. Part of that accounts for those 
differences in the numbers that you have before you and what 
has occurred. As recently as last week, we issued another 
delivery order for 1,170 vehicles.
    Our goal right now is to field the MRAP as we know it today 
as rapidly as possible. We recognize there are additional 
threats that have to be dealt with, and we have a spiral effort 
working to incorporate those improved survivability features 
either into these vehicles or into a subsequent vehicle.
    The Marine Corps and our teammates are committed to 
delivering them a maximum number of survivable vehicles that 
have test-proven performance in the shortest time possible.
    I believe, sir, I will end there. I look forward to 
assisting you with additional information.
    Mr. Taylor. Thank you. Thank you, General Brogan.
    The chair now recognizes Lieutenant General Speakes.

   STATEMENT OF LT. GEN. STEPHEN M. SPEAKES, DEPUTY CHIEF OF 
                   STAFF, ARMY G-8, U.S. ARMY

    General Speakes. Chairman Taylor, Chairman Abercrombie, 
Ranking Member Bartlett, Ranking Member Saxton, ladies and 
gentlemen of the committees, it is an honor to appear in front 
of you today.
    We are here to talk about a topic that is vital to all of 
us who are concerned about the welfare of soldiers and Marines, 
airmen in harm's way, and, today, we will address a major 
program that is our joint focus.
    First, I would like to begin by providing the Army's full 
endorsement and full support for the Joint MRAP Task Force so 
ably led by Mr. Young and so capably directed by General 
Brogan. General Brogan and his team over the past months have 
done Herculean work to pull this program together to ensure 
that we are working together with a common vision of providing 
protection as fast as we can to the combat zone, and we are 
proud to be a part of the team and working with them.
    The Army's number one protection priority continues to be 
the soldier. We know that we face an enemy who every day is 
thwarting or attempting to seek to thwart our ability to 
provide that protection. What we must do then is provide a 
relentless series of improvements to soldiers who are in harm's 
way.
    Over the past 4 years, the Army has provided 94 different 
programs with your support worth over $100 billion to provide 
additional protection and capability to soldiers in harm's way. 
This has an enormous tribute to an Army that recognizes the 
priority to provide the capability to soldiers now, not to 
think about it, not to pontificate about it, but to deliver. 
With your help and support, we will continue to do that.
    Our focus today is MRAP, but we see it as just one more 
stage in a continuing evolution of capabilities we must provide 
to soldiers in harm's way. We share your passion to ensure we 
do it, we share your commitment and concern, and we appreciate 
very much the chance to be here today.
    Mr. Taylor. Thank you, General.
    We have been joined by the Ranking Member of the Seapower 
Subcommittee, former Chairman Bartlett.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
  MARYLAND, RANKING MEMBER, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Bartlett. Thank you. I understand that my prepared 
opening statement has been made a part of the record?
    Thank you very much.
    I apologize for being late. I had obligatory attendance on 
another committee for a markup. I am pleased that that markup 
ended so that I could be here for your testimony.
    Secretary Young, good to see you here. Thank you very much 
for your service to your country.
    And, gentlemen, thank you for your service to your country.
    I look forward to the rest of this hearing and the question 
and answers.
    Mr. Taylor. Okay. The gentleman from Maryland is recognized 
for the first questions.
    Mr. Bartlett. Thank you very much.
    What you have done in expediting the acquisition of the 
MRAPs is near unprecedented in the military. Rarely do we move 
that rapidly. One of the consequences of this is that we are 
procuring these vehicles from several different vendors, which 
means that we are going to have a maintenance challenge in the 
field.
    If this were procured in an ordinary way, we would have 
settled on one design and you might have half a dozen different 
companies building the one design. We now have several 
different designs. Have we thought through how we are going to 
maintain these in the field, and what are the long-term plans 
for MRAP when this emergency is over?
    Mr. Young. I might start and then General Brogan or my 
colleagues can add to it.
    The task force has looked at the top level set of those 
issues. There is a team, an Army-Marine Corps joint team, 
Defense Logistics Agency team that has gone to theater and 
looked at whether facilities are adequate to support these 
vehicles, the gun to put in place, the plans for parts storage, 
all those issues. The vehicles as contracted come with initial 
contractor logistics support, and then we are going to look to 
train our teams and troops in theater to be able to maintain 
the vehicles. So all these issues are being worked very 
quickly.
    You rightly said, as other members did, the program is 
moving very fast. In some cases, we will tell you we have 
identified the issues, we have teams on them, and we are 
working to solve them. We will not have all those answers today 
because of the speed the program is moving at, but people are 
looking very hard at those specific plans of maintenance and 
support and facility capacity in theater for the vehicles.
    General Brogan. Sir, as you correctly point out, we have 
created a logistics challenge. We believed that was an 
acceptable risk in order to have a number of producers 
producing vehicles simultaneously that have virtually similar 
survivability characteristics.
    Had we waited until we completed all the testing and then 
down-selected the one vendor and then asked him to provide his 
design to other vendors, I believe, sir, that would have slowed 
up the process and isn't certainly what we wanted to do.
    So, to help reduce that risk, as Secretary Young indicated, 
we have procured contractor logistics support from the original 
equipment manufacturers for the first year. We also have an 
option for that for the second year.
    At the same time, we have an integrated product team. It is 
led by an Army civilian from the Tank-Automotive and Armaments 
Command that is in Warren, Michigan, that is looking at how we 
could migrate from contractor logistics support to either 
organic or a third-party logistics provider, whichever proves 
to be the most effective.
    What helps us in this, though, is that fundamentally these 
vehicles are trucks. Our mechanics, soldiers, sailors, airmen, 
Marines are capable of repairing diesel engines. They are 
familiar with the types of transmissions that are in these 
vehicles, and so they will be able to do the organic 
maintenance on them without a great deal of difficulty.
    We are also aided in the supply chain in that there is a 
great deal of commonality at the component level on these 
vehicles. There are only two axle manufacturers involved in the 
program. A number of the vehicles have either Caterpillar or 
Cummins diesel engines. They all have an Allison transmission. 
So there is a lot of commonality at the subcomponent level 
which will help us.
    Those vendors of transmissions, of engines have worldwide 
parts distribution networks. So that will help us in sustaining 
the effort.
    Additionally, at the Red River Army Depot, working with 
Defense Logistics Agency, we are doing that initial 
provisioning to ensure that we have the repair parts that are 
required in theater so that we can maintain these vehicles once 
they arrive.
    Mr. Bartlett. For the long haul, we will have provided 
probably the best ever field testing for these vehicles. Do we 
anticipate an ultimate down-select where that design might be 
built by a number of manufacturers so that we will have a 
single requirement for parts?
    General Brogan. Sir, as the program continues to evolve--
and, as I mentioned, we have an effort ongoing to develop some 
capability for additional threats--that certainly is a 
possibility.
    What I would offer to you, though, is that wheeled-tactical 
vehicles have a fairly limited lifespan even in normal routine 
service here in the continental United States. Certainly in 
theater, with the severe wear and tear that they see in daily 
operations, we are not going to have much life left in those 
vehicles, in all likelihood, when the conflict ends, and that 
would give us the perfect opportunity, as you have suggested, 
to pick that best of breed and carry them forward, at least 
until we get to the Joint Light Tactical Vehicle Program that, 
in all likelihood, will be the future Light Tactical Wheeled 
Vehicle for the armed forces.
    Mr. Bartlett. Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Bartlett.
    The chair now recognizes the gentleman from Hawaii, Mr. 
Abercrombie.
    Mr. Abercrombie. Thank you.
    I want to make sure I understand the answer to Mr. 
Bartlett's question. Whether the numbers that we are dealing 
with at any given point are 7 or 17 or 23 and whether or not 
there are changes in numbers--which I recognize, as you go 
forward, there are bound to be changes in cost and so on, 
although I think that still needs to be addressed--how by 
increasing the numbers does the cost actually go up?
    The usual formula is that if you get more, even if there 
are several varieties of MRAPs, as there are--I understand 
that. I have gone all through what has been presented--the 
Category I, Category II, Category III, and a lot of variants 
there--and there were experimental vehicles put forward, 
obviously, some of which met what we needed, some of which did 
not, some of which are going to be modified as we go along----
    You can draw a parallel to the Stryker vehicles, for 
example, which have been through, by my calculation, at least 
six different variations so far that caused cost estimates to 
change and production schedules to change.
    Taking all that into account, I believe the phrase was it 
is a program of record. It is a phrase of art essentially in 
trying to understand what to do.
    I say all that by way of preliminaries because I am not 
quite sure what the answer was in terms of the long-term intent 
with regard to these vehicles. Do we intend to leave these 
vehicles in Iraq or Afghanistan? In other words are they 
throwaway vehicles essentially, or are they intended to be put 
into the inventory, if you will, to the degree and extent they 
can be?
    General Castellaw. Let me take a shot at that first, sir.
    Mr. Abercrombie. Do you understand the thrust of the 
question, why I am asking it?
    General Castellaw. I think I do so, sir.
    Mr. Abercrombie. Okay.
    General Castellaw. I guess my answer will indicate whether 
or not----
    Mr. Abercrombie. Okay. Fair enough.
    General Castellaw. Sir, as we look at how the Marine Corps 
has addressed ground mobility, we started out with vanilla 
Humvees. As the threat increased, we put armor on them. We 
developed Marine armor kits. We went to fully up-armored 
Humvees. Now we are introducing the MRAPs.
    As we look to the future, we will be looking at how the 
MRAPs will fit into our concept of operation. The vehicle is 
very heavy. It is difficult to transport, particularly on ships 
when the Marines come from the sea. We are doing an assessment 
now of what our ground mobility requirements are going to be.
    I indicated I talked with the commander in the field this 
morning. In his view, when we look to the future, he is going 
to want something that has the armor protection that we are 
getting with the MRAP, but also the mobility we have with other 
vehicles. So this will probably be one in a series of vehicles 
that we have developed and we will develop to meet the 
requirements as they exist at any particular time.
    The 3,700 vehicles that we see as being what we need to 
employ now are the ones that we need to match against the 
current fight. So we will continue to assess and evaluate, we 
will continue to look at other vehicles, and then eventually we 
will make a decision on what will be the end result of these 
particular vehicles.
    Mr. Abercrombie. Okay. So then, on the question of program 
of record about looking forward, if there is a decision made to 
draw down the numbers in a place like Iraq or Afghanistan or 
any other place, that that might then affect the numbers that 
would be manufactured or the variants associated with it, 
right?
    General Castellaw. Well, the Marine Corps, you know, is 
solid with our numbers that we are seeing, and for how we are 
projecting right now----
    Mr. Abercrombie. For right now, for calendar year 2007?
    General Castellaw. Yes, sir.
    Mr. Abercrombie. And, hopefully, for the fiscal year 2008, 
that that isn't going to change, regardless of whether there is 
a chance in policy in the immediate future or near future, that 
these numbers can be fairly well relied on by these committees?
    General Castellaw. Sir, I see 3,700 as the number.
    Mr. Abercrombie. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Abercrombie.
    The chair recognizes the gentleman from New Jersey, Mr. 
Saxton.
    Mr. Saxton. Thank you very much.
    Mr. Young, the information that we have here shows that the 
MRAP vehicle requirement has steadily progressed over the last 
eight or ten months.
    Initially, apparently, we thought that we would acquire 
somewhere around 1,200, and then as testing went forward and 
the vehicle matured, apparently, the need was established for 
4,000 or 5,000, and then the last time you folks were here we 
were told that we needed somewhere around 7,700, and now the 
vehicle requirement has risen as of this month to a little over 
23,000.
    Could you talk a little bit about that requirement? And 
then I will ask another question about how we expect to meet 
that requirement.
    Mr. Young. I appreciate the chance, and let me maybe add 
some dimensions that might address Chairman Abercrombie's 
question also.
    Back, I think, in the May timeframe, the Joint Chiefs of 
Staff validated a requirement for 7,774 vehicles. They recently 
produced a new document that says they endorse buying as many 
vehicles as we can as fast as we can and that we will continue 
to evaluate the need and requirement for those vehicles.
    Secretary Gates in the task force meeting has specifically 
asked the Army and the Marine Corps to understand for certain 
their near-term needs and consider their long-term needs and 
how MRAPs might or might not fit in their longer-term force 
structure picture, and the services are looking at that and 
determining that answer.
    The agreement in that task force leadership group with the 
Joint Chiefs of Staff there was they say a need for no less 
than that, roughly 8,000 vehicles, so we are going to march to 
buy those as fast as we can, and even with the funds we have 
and the reprogramming, we will not cross that line. We expect 
to send a budget amendment to the Congress to revise our budget 
and tell you we want to buy up to 8,000 and do that here very 
shortly.
    And then in the September timeframe, we expect to revise 
that budget amendment or send another budget amendment to tell 
you what we will do for 2008. That number will be informed by 
how successful we are in manufacturing and whether we achieve 
the rate now that we are shooting for, which is 1,300 vehicles 
a month manufactured in December. That will tell us how many we 
can buy in 2008.
    We need some feedback from the field about their experience 
in those vehicles as we deliver them, and then we need to 
understand how the leadership makes adjustments in the missions 
in Iraq and Afghanistan, and so I think in the September 
timeframe, we will give you a better picture of what we need in 
the 2008 budget and whether we are going to reach some 
requirement number or keep buying as fast as possible over the 
course of 2008.
    Hopefully, that gives you a better picture of it.
    Mr. Saxton. Thank you.
    I am not sure what the genesis of this chart is, but it 
does show the 7,774 number that you just spoke of, but then 
over here on the left-hand side, there is a July 2007 
invalidated requirement for 23,044 vehicles. Can you say where 
that came from and talk to that number, or is that subject to 
revision?
    Mr. Young. I think it is definitely subject to review and 
revision. The Army--and I will let my colleagues address that--
specifically went in theater and looked at one of the genesises 
of that number. The theater initially suggested that. Elements 
of that number represent one-for-one replacement of up-armored 
Humvees with MRAPs.
    We don't know yet if that is the right answer. Again, 
Secretary Gates has asked to make sure we get our needs 
addressed immediately for theater, but also asked the Army and 
Marine Corps to determine whether there is a long-term 
requirement here, and those two numbers, hopefully, will match 
up.
    And then the other thing I wanted to mention to Chairman 
Bartlett's question, when we have more of this information, the 
Secretary is conscious that we have multiple vehicle types, and 
if we are going to have MRAPs in our inventory in the long 
term, we want to look very hard at how many variants we have 
and how we maintain those variants.
    Let me give the military officers a chance to talk about 
the requirements.
    Mr. Saxton. If I could just--I don't know. Are we on the 
five-minute rule?
    Mr. Taylor. Mr. Saxton, we are trying to live by it, but, 
again, given the importance of this----
    Mr. Saxton. I don't want to run out of time. I want to----
    Mr. Taylor. If you consider it to be an important question, 
I want you to ask it, and I would think----
    Mr. Saxton. Okay. Well----
    Mr. Taylor [continuing]. That I would ask unanimous consent 
to----
    Mr. Saxton [continuing]. If the military officers expand on 
what Mr. Young just said, I probably will not have time to ask 
the rest of my questions.
    General Brogan. Sir, would you like me to tell you the 
growth of the requirement, sir?
    Mr. Saxton. What I would like to do, with all due respect, 
is turn to another chart that I have here and ask Mr. Young 
this question. I have another page here which talks about the 
Master Joint Production Schedule. As with any new system, 
production starts slow. We would all agree on that, right?
    And this shows, for example, that in May of 2007, the total 
planned production was 62 vehicles. This chart shows that by 
February of 2008, we will have ramped up at a steady pace to 
806 vehicles by February of 2008, which, I think, Mr. Young, 
you just said you are going to try to take to 1,300 vehicles 
per month.
    Mr. Young. The number I gave you assumes we are successful 
with the Congress on the reprogramming and accessible with this 
acceleration effort to buy another 2,650 vehicles between now 
and March, and so I think it would be on top of the number you 
have.
    Mr. Saxton. Here is my question. We are working with 
several manufacturers. Are there problems with getting to the 
numbers that we have projected here in terms of the production 
schedule that I made reference to? Are we going to be able to 
meet that schedule working with a variety of manufacturers?
    Mr. Young. I think that is probably the largest risk the 
program faces. What I can tell you is I have talked personally 
to in general the CEO or the next level of leadership of each 
of these companies in asking them can you deliver, because I 
did not want to go to Secretary Gates or come to you and tell 
you we can buy more vehicles that they cannot build. That will 
encumber money that we could use to do other things for our 
troops. So they believe they can.
    And this program, as was said earlier, is not like any 
other program in the department. You can look every few months 
at many of the programs and get an update. This is a regular 
program. The fact that 82 vehicles were delivered in June was 
an important set of data every week for industry, and it was 
part of the data that led them to say to me, ``I can build more 
vehicles between now and December.''
    We need to see how they do on July, but they already have 
the picture of July and August because their ability to deliver 
250 vehicles in July is dependent on their subtier vendors 
getting axles and engines and steel in place for them to build. 
So they have what they did and they have a picture of how 
materials are flowing in.
    But you have highlighted exactly the risk issue, but I 
think consistent with Chairman Taylor's comments, we are going 
to take this risk because the Secretary's orders to me are ``Do 
not leave a vehicle that could have been built on the table for 
lack of a contract or money.''
    Mr. Saxton. Thank you, Mr. Young.
    And, Mr. Chairman, thank you.
    I just have one final thought, and that is that I hope that 
you will just, as a matter of course, keep us informed about 
how we are doing on this acquisition program.
    Thank you.
    Mr. Taylor. The chair thanks the gentleman.
    The chair recognizes the gentleman from Texas, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Secretary, thank you so much for all your testimony 
this morning.
    I was just wondering, Mr. Secretary, if you could clarify 
when I see your first page of your statement at the bottom 
where you say that, ``New MRAP vehicles are being delivered 
today to Iraq because of the excellent dedicated work of this 
government and industry.'' Can you clarify a little bit? Were 
we getting the same vehicles at the same time that the Iraqis 
were getting it?
    Mr. Young. No. I am specifically talking about MRAP 
vehicles. That refers to the candidate vehicles that were 
awarded in January and went through testing. They have been 
tested to a standard that was set by the theater and approved 
by the Joint Staff, and those are the vehicles that we are 
contracting for.
    As General Brogan pointed out, we signed contracts because 
we had experience with some of these vendors before their 
vehicles completed the full set of testing and, indeed, to a 
question that was asked earlier, in several of the vehicles 
that we are buying, several of the vehicle types, we had 
already bought tens and twenties of those vehicles and had them 
in theater.
    So the comments refer to a couple of things: one, a 
tremendous set of work by the Joint Program Office and Aberdeen 
in testing the vehicles and then the fact that we can deliver 
vehicles today, which General Brogan would tell you normally 
would have four-to-six-month timelines, but we are delivering 
numbers today because industry in many cases before they had a 
contract went and started buying parts and materials. So they 
assumed they would get a contract, and they could deliver 
vehicles and/or we gave them Low Rate contracts.
    Mr. Ortiz. So, when we do send vehicles down there, I know 
that some are being used by the Iraqi government, Iraqi troops. 
When they get there, are we giving our troops priority for them 
to get the vehicles?
    Mr. Young. I will let General Brogan----
    General Brogan. Sir, all the vehicles that I am procuring 
are going to U.S. servicemen. There were some foreign military 
sales cases that occurred outside of my program office that 
bought a vehicle called the Badger that were made by a U.S. 
company, were not tested to the same standard as my vehicles, 
in fact, were not even entered into my competition, and those 
vehicles are being given to the Iraqi security forces so that 
they can assist U.S. forces in accomplishing their mission. But 
every vehicle that I am buying right now through my program 
office under the MRAP label is going to the U.S.
    Mr. Ortiz. See, as chairman of the Readiness Subcommittee, 
my concern is being able to maintain all these vehicles. Are 
you at any time thinking about integrating or bringing these 
vehicles to the depots that do some of this work so they can 
get familiarized with the vehicles so that the depot 
employees--and I know they deploy many times with the troops to 
fix them, to be sure that--and it has been a problem before--
spare parts----
    General Brogan. Yes, sir. In fact, just recently, the 
Marine Corps logistics base at Albany sent forward a team of 
depot-level mechanics and welders to participate in the 
maintenance of those vehicles. Albany is teamed with one of our 
manufacturers to assist in building vehicles. Anniston is 
teamed with one of the manufacturers. The Red River Army Depot 
is involved in the provisioning of the repair parts. So we are, 
in fact, attempting to incorporate the United States depot base 
into what it is we are doing.
    Mr. Ortiz. And just one last question now: At one point, 
are you going to be able to furnish all the parts that will be 
universal? I know you have different companies who are building 
these MRAPs, but it would be easier. And I don't know whether 
this can be done or not, I mean, because, if we have different 
vehicles, different standards, different equipment and stuff, 
it is going to be harder than if you had all the parts 
universal where you can equip them right away because you have 
them in stock.
    General Brogan. Sir, you absolutely make a good point, and 
that was the tradeoff we made, rapid production versus a 
pristine supply chain that would ease our ability to maintain 
the vehicles. We believe in the interest of getting as many of 
these lifesaving vehicles into theater as rapidly as possible 
that that was an acceptable trade.
    Mr. Ortiz. Do you have any of the MRAPs at any of the 
depots here in the United States so that they can learn how to 
work on it?
    General Brogan. Not currently, sir. The first priority is 
to get the vehicles over into the hands of the warfighters. As 
the pipeline fills up, as we get to these much higher 
production rates, then the commanders in theater will tell us 
when they believe that some of these vehicles can go to home 
station training so that we can train the operators here rather 
than on-the-job training in theater and to do the sorts of 
things that you suggest, develop the maintenance base at the 
depots.
    Mr. Ortiz. Because one of the things we want to be sure is 
that we have the right personnel to fix them so that our troops 
can have adequate equipment.
    General Brogan. No question, sir. In fact, right now, I 
have visibility through our maintenance system into the 
vehicles that are being used by the Navy and the Marine Corps, 
and the last snapshot I had when I briefed Secretary Winter on 
Monday, as I do every Monday, was 93 percent operational 
readiness for the MRAP vehicles in the hands of sailors and 
Marines. So these vehicles are doing very well in theater.
    Mr. Ortiz. Thank you so much for joining us this morning.
    Mr. Chairman, thank you very much.
    Mr. Taylor. Thank you, Chairman Ortiz.
    The chair now recognizes the gentleman from Georgia, Dr. 
Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you.
    And, gentlemen, thank you for being with us today and your 
testimony.
    Mindful of the opening statements of Chairman Taylor and 
Chairman Abercrombie and ranking members of how important this 
issue is and the decision the Secretary of Defense, Secretary 
Gates, has made in regard to reprogramming and this program 
being of the highest priority, I do have some concerns in 
regard to balancing that need versus a risk of moving into 
something too quickly. I mean, it would be like an analogy of 
trying to spend $6 billion producing a vaccine against a 
constantly mutating threat of bird flu.
    And the report from the multinational force of Iraq 
estimated that the use of the MRAP vehicle could reduce 
casualties, deaths and injuries--casualties by 80 percent. 
Well, you know, that is a huge number, and if that is true, 
then, certainly, it is understandable why we would rush to 
produce, even though, as Mr. Bartlett mentioned, there is some 
risk in doing that, risking cost, risking not getting it right.
    There are other things to consider besides the V-shaped 
hull. There is the weight of the door. There is the ability to 
get out of the vehicle quickly. And I say that because, in my 
own district, we lost one of our best and brightest young men 
because the up-armored Humvee--I don't know whether it was an 
after-the-fact add-on kit or manufactured at the facility 
before it got to the theater--basically rolled down a hill 
because the road would not support it, and worse than that, 
when they ended up in the canal, they could not get the doors 
open, and the four soldiers drowned.
    So I have concerns. I have concerns about, well, even buy 
America. I am very agreeable with my Ranking Member Mr. Hunter 
in regard to that, but I was at a German embassy recently where 
some of their vendors said that this design that we are going 
after is not the best design, that they have something called 
the Dingo, I believe they referred to it, and so is buy America 
and the very amendment of these restrictions possibly hurting 
us in getting it right?
    Mr. Young. At this time, I don't believe that is the case. 
Secretary Etter worked with the legal team, and the 
determination is that these vehicles are for conflict and they 
are going directly into theater, and at that point in time, 
some of the restrictions with regard to specialty metal can be 
overcome because you are deploying the vehicles directly into a 
combat situation. So we are not impeded right now with those 
restrictions because they are going to combat operations.
    Dr. Gingrey. With all due respect, I don't think you 
answered my question. I mean, have we looked at these other 
designs that maybe are not necessarily American?
    Mr. Young. Sir, I will let General Brogan talk to that. I 
was talking about for the designs we are building.
    General Brogan. Yes, sir. I am familiar with that vehicle. 
I have been to Krauss-Maffei Wegmann in Germany. In fact, I am 
going later this month back to visit their facility.
    We had a foreign open competition in November. All comers 
had the opportunity to bring their wares to the table, and that 
vehicle was not entered into the contest. As I mentioned also, 
we are looking at a second round. Colloquially now, it is 
referred to as MRAP II, but we have increased the requirements 
for threat level on that and, certainly, we would welcome them 
joining into that to prove that that vehicle has the increased 
survivability that the vendor offered to you.
    We know that the threat continues to adapt. One of the 
criteria that we set as we selected our vendors was growth 
margin. You know, axles and tires are rated for a certain 
weight. We wanted to ensure that there was additional weight 
margin available in the design so that if we had to put armor 
on to deal with some of these other threats, that we would not 
overload the axles, overload the tires, make the trucks 
unusable, the sort of problem you described with the up-armored 
Humvees with additional FRAG Kits. So we have tried to consider 
that. We probably haven't been perfect, but we have done the 
best we could, sir.
    Mr. Young. Maybe I could add to that. We are aware--the 
team is aware and I am personally aware--of other components 
and vehicle designs that did not go through the first round of 
testing and offer some, in their view, additional protection. 
So the task force has asked the Joint Program Office team to 
open that competition in the reprogramming before you include 
some funds to support those efforts because we do have to 
continue. As I think the committee members have noted, they 
understand this vehicle is not a panacea, and we are going to 
have to develop additional measures because the threat will 
adapt and adjust.
    Dr. Gingrey. Well, I know my time has expired, Mr. 
Chairman. Just in closing, let me say it is important that we 
get it fast, but it is very important that we get it right.
    Mr. Taylor. The chair thanks the gentleman from Georgia.
    The chair now recognizes the gentleman from Connecticut, 
Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman, and I want to salute 
your efforts on this issue, which was the first hearing, I 
believe, of this subcommittee back in January. You know, there 
are a lot of numbers going around today about ordered, produced 
and delivered, and I just, again, want to be clear in my own 
mind.
    Mr. Young, you said 82 was the figure for June. Is that 82 
that have actually been delivered to Iraq?
    Mr. Young. Well, we are generally quoting numbers that are 
delivered from industry to us, the government, and there is a 
timeline to get the vehicles from the factory to SPAWAR in 
Charleston, and then that timeline, which Secretary Gates is 
laser-focused on and has put the pressure on me and General 
Brogan and the Joint Program Office team and the SPAWAR 
Charleston team, to reduce the time to install radios, jammers 
and other government-furnished items, and then there is a 
timeline to transport the vehicles to theater.
    I would tell you at the current numbers that we are 
building the vehicles, they are all going by air because of the 
urgency of getting the vehicles there. So what numbers we quote 
you typically are from industry to the government to be 
followed by some number of days of work, government-furnished 
equipment installation in Charleston, and then transportation 
to theater.
    Mr. Courtney. So, in other words, the 82 that were produced 
in June are not in Iraq right now?
    Mr. Young. They are not all in theater.
    Mr. Courtney. Okay. And there are notes here from the 
committee staff that all together, there are about 170 MRAPs in 
Iraq? Is that pretty much an accurate----
    Mr. Young. General Brogan might have the latest.
    General Brogan. As of the last time I looked at the 
numbers, sir, it is 176 that have been delivered from the MRAP 
Program Office. I need to be clear in the verbs. ``Fielded'' 
means it is in the hands of the users in Iraq, and so that is 
our metric, how many have we fielded to the warfighter. 
``Delivered'' is when we take control of them from industry and 
then begin the process that Secretary Young outlined.
    Mr. Courtney. So, given the fact we have about 158,000 
troops over there and 176 of these vehicles, I mean, how you 
distribute them is kind of a Solomon-like decision given the 
statistics we know. And I wonder if you could help us sort of 
understand how they are distributed once they are there, given 
the fact that there are not enough for the troops that we have.
    General Castellaw. Right now, for the Marine Corps, we have 
a little over 200 in theater, and what those are is a 
combination of the new MRAPs plus some legacy MRAPs that we 
have had in before. What General Gaskin uses them for, those 
right now, are route clearance and to transport explosive 
ordnance to detachments. As the numbers come up, then they will 
start replacing vehicles that are in the operational units that 
are doing the daily patrolling and the normal counterinsurgency 
operations.
    Mr. Young. Could I add to that, sir?
    Mr. Courtney. Sure. Absolutely.
    General Speakes. Sir, let me go ahead----
    Mr. Courtney. All right. Please.
    General Speakes [continuing]. Let me just explain where we 
are from the Army's perspective, sir.
    First, one of the times that we haven't covered yet is 
General Brogan's team brings this product in from industry. The 
next part of the plan that Secretary Young has put together is 
a joint distribution board, and that is critical because what 
it assures us is that the Solomon-like decision that you 
referred to is correctly executed.
    Here is what happens. The supportive commander, the 
combatant commander in theater tells the Joint Staff where his 
priorities are for issuing the MRAP. Then that is important 
because what we are doing at the service level, our support to 
General Brogan, is to ensure that service-unique items, which 
are very few, are essentially configured so that when we get 
that piece of equipment to Charleston, which is where the 
equipment is given the final government-furnished equipment 
assembly, it gets the few items of service-unique equipment put 
on it so that we know where it is going, we know what kind of 
capability it is going to need, we are all working together 
then to make sure that equipment leaves Charleston with the 
right kind of equipment to operate in a way that is compatible 
with a particular service.
    And so that is important because that joint distribution 
process assures us all that these very limited assets are going 
where the combatant commander wants them and, second, that we 
are linked to make sure that that vehicle arrives in an 
operational configuration.
    We have also provided for the capability to ensure that the 
vehicles are essentially interchangeable. In other words, they 
all have the right accessory kits where, if the vehicle has to 
leave an Army unit and go to a Marine unit, it can quickly be 
transferred from Army to Marine or vice versa. That is another 
part of this joint task force that has been very successful in 
bringing us into convergence on the basic model and the basic 
interoperability of the piece of equipment.
    The other part of the Army strategy has been something that 
we have been embarked on since 2004, and that is what we call 
route clearance teams. Early on, we recognized that the Army 
was underresourced with a combat engineer capability as a part 
of every brigade combat team that would enable us to do route 
clearance, and so what we did is created an organization that 
links combat engineers with explosive ordnance detachment 
personnel and gives them the kinds of vehicles we now call 
MRAP.
    So, at this point, the Army has a little bit less than 500 
of these vehicles that are in theater right now, distributed at 
the tactical level, and they are operating every day doing 
route clearance. That is a different mission than the general 
purpose force mission that we see now for MRAP where we go 
ahead and execute a transition where this vehicle now goes out 
to be a part of a routine combat patrol capability in the hands 
of basic combat troops instead of specialized forces.
    So those are the kinds of things the Army sees as the way 
we are adapting the new capability called MRAP to the existing 
capability we have built for this war called Rapid Clearance.
    Mr. Courtney. I am out of time. But any other comments you 
have about your own recent trip to Iraq and whether or not you 
think this is the right way to allocate it? Again, I don't want 
to take other time up, but----
    Mr. Taylor. The chair would ask unanimous consent that the 
gentleman be given two additional minutes.
    General Speakes. Sir, I appreciate the chance to talk about 
it. General Logos, the Army G-3, and I went at the direction of 
the secretary of the Army and the chief of staff of the Army. 
The mission was to ensure we understood how we were going to 
support this MRAP Program with a clear understanding of what 
the needs of the commanders were forward. We were able to talk 
to all the senior commanders that we saw forward in theater, 
starting with General Petraeus, General Odierno, General Lynch, 
General Mixon, for example. We also talked to some of their key 
staff to get an idea of where we are.
    Clear, number one, that the need of MRAP is preeminent. 
Where we saw the commanders, what they talked about was the 
vitality of seeing something that has the capabilities that 
MRAP has, and they also explained to us that they don't want to 
get in the business of micromanaging the distribution to that 
formation. What they want us to do is get the capability to 
them as fast as they can to respond to theater commanders in 
terms of where it is that it is going to be most effective and 
give it to them in a configuration that is immediately useable.
    For example, we are no longer doing this expensive buildup 
of capability in Kuwait. The vehicles arrive, based upon the 
great work General Brogan's team is doing, already ready for 
combat. That is a huge gain in terms of time and effectiveness 
of people.
    The other thing that we saw, I think, is very important. 
Focused, though, they were on MRAP, the other thing that we saw 
was some very important capabilities that enable us to have 
much greater utility of what we call left-of-the-bang 
technology, and what that means is that increasingly we are 
able to use some very, very good techniques that are enabling 
us to intercept the bomb maker before they are able to put the 
bomb off.
    And those capabilities will be more appropriate to discuss 
in a classified forum, but they are taking shape, they are 
having effect today in combat, and they are saving lives, and 
so the other thing commanders told us is, ``Keep those things 
going, keep this expensive investment in research and 
technology going, and keep fielding capability to us as fast as 
you can.''
    And then the other thing we saw which is what everybody 
sees, I think, which is, frankly, the heroic nature of those 
who are in combat, their selfless service, and that in itself 
was an encouragement to keep up this effort.
    Mr. Taylor. The chair thanks the gentleman from 
Connecticut.
    The chair now recognizes the gentleman from California, Mr. 
McKeon.
    Mr. McKeon. Thank you very much, Mr. Chairman.
    And thank you all for your service.
    I have a lot more questions than I have time. We have, I 
thought I heard you say, 3,700 Humvees in theater?
    General Speakes. Sir, I could talk to the number of Humvees 
the Army has. At this point, the Army has about 18,000 Humvees 
in theater at this point.
    Mr. McKeon. When you say in theater, that is in Iraq and 
Afghanistan?
    General Speakes. Sir, the total requirement right now for 
Humvees that I am speaking to is in Iraq, and that is based 
upon where we are right now with the formations that are 
directly employed in combat and then the additional 
capabilities we are trying to build in terms of a repair and 
replacement capability, which are located in Kuwait.
    Mr. McKeon. So 18,000 in Iraq?
    General Speakes. Yes, sir.
    Mr. McKeon. And I think Mr. Abercrombie asked were those 
going to be worn out or are they going to be left there, and I 
don't know if I heard that answer.
    General Speakes. Sir, we don't believe so. What we have 
right now is a need for the Army right now for about 140,000 
Humvees as a part of our existing formation. We are continuing 
to view the Humvees that we have put in theater as a part of 
the Army. In other words, they are not separate from anything 
we see as an end state whenever or whatever time it is that 
formations leave Iraq.
    We will need the Humvees that we have. We fully expect to 
take them back with us, and part of what we have seen is a 
continuous focus on keeping them repaired and investing in the 
very, very important elements of reset so that we are cycling 
equipment back and trying to get it repaired and maintain it.
    Now, as a part of up-armored Humvees, because they are so 
important, what we have invested in is forward repair 
capabilities that are resident both in Iraq at Balad and also 
resident in Kuwait so that we are able to keep these vehicles 
operational for an extended period. But we do not see them as 
give-aways. We see them as a part of something that is 
essential to the Army.
    Mr. McKeon. So the MRAPs are not going to totally replace 
Humvees?
    General Speakes. Sir, we do not see that from the Army's 
standpoint. First, we don't know how many we are going to get, 
we don't know how many we are going to need, and we don't know 
how well commanders are going to respond to this as a general 
purpose vehicle. We will see that as has been very, very well-
explained by Secretary Young and the team. We will get 
commanders' feedback, we will get an immediate understanding of 
how successful MRAP is, how the enemy attempts to counter it, 
and how useful it is as a general purpose vehicle.
    We will obviously buy everything that is needed, and we 
will respond to commanders, and we will not stop until they 
tell us to stop.
    But then the next thing we will have to do is evaluate 
where MRAP fits in the formation. The clear example, first of 
all, is that we have substantial engineer formations in the 
Army right now that do not have a modern combat vehicle. For 
example, they are still using the M113. We would see a large 
capability to use MRAPs, for example, for combat engineers. So 
there are a lot of uses that we could see for MRAP.
    The other thing we see is we are going to continue to put 
the pressure on American industry and the research and 
development command to bring the critical parameters we need. 
MRAP is not an end state. We see critical improvements that we 
will need both in terms of the performance, payload and 
protection that the Army is going to need as a part of a joint 
team.
    We are never going to go separate from the Marines in the 
sense that we will be linked arm and arm as we look at our 
future Tactical Wheeled Vehicle strategies. We will work 
together on it, but we see that there are capability 
improvements that we both need as we look toward the next 
general of vehicles, and so for us, MRAP is an interim solution 
for the needs of combat and not an end state.
    Mr. McKeon. I have a suggestion on this little chart here 
that shows total planned, total actual. I would suggest that 
from what I have heard earlier that you also add a line in the 
number that are at Charleston--is it Charleston where they 
go?--and then the number that are in theater so we could kind 
of track how they are moving through and how long it is taking 
them as we go through this.
    As I have sat here today, I am very frustrated. The Senate 
stayed in all night a couple of nights ago discussing how soon 
are we going to get out of Iraq, and it looks like you are 
going full boar trying to get equipment over there, and we have 
members of this body and the other body going full boar trying 
to get us out. I don't know how we are going to resolve this. 
It seems like we are going to be running into each other coming 
and going.
    If we have 18,000 Humvees over there and we are building 
these MRAPs and sending them over there as fast as we can, we 
have people trying to get the troops out of there as fast as we 
can, this is very, very complicated, and I don't know how this 
is going to all be resolved, but it is looking like a real 
problem that is a lot more complicated than a couple of 
speeches of how we can go there or come here or what we are 
going to be doing, and I get very frustrated by it.
    I have some other questions, but I know my time is up, and 
I will try to get them submitted to----
    Mr. Taylor. In fairness, the chair would ask unanimous 
consent that the gentleman be given two additional minutes.
    Mr. McKeon. Thank you very much.
    Let me ask just one specific question then. On this chart, 
we see the Marine Corps is asking for 3,700 vehicles. This is 
the latest chart where the Army is up to 17,770. The Marines 
are asking for 17 Category III Buffalos, and the Army is not 
asking for any. Why is the big difference there?
    General Speakes. Sir, the reason for that is that I 
mentioned earlier the route clearance teams that are a part of 
what the Army has been building since 2004. We look right now 
at MRAP as the vehicle that is going to be the combat patrol 
vehicle. It is going to be the primary carrier of the squads 
that are most at risk right now in combat.
    The other thing that MRAP provides, particularly the 
Category II, is the critical capability that is very lacking in 
the battlefield today, which is medical evacuation recovery and 
command and control capability to give commanders the mobile 
platform that affords them much higher security.
    So those then are the critical parameters that we think are 
most essential right now, and at this point, the route 
clearance effort that we have appears to be something that has 
borne fruit. The organizations are in place, and we are 
continuing to field them, and we are fielding them in a 
separate program that is complementary to this effort.
    Mr. McKeon. And so you don't feel that you need the 
Buffalos to do that?
    General Speakes. At this point, sir, through the MRAP 
Program, no, we do not, and the route clearance effort that we 
have is moving well. So the Army bought Buffalos separately 
outside of the MRAP Program, which is why I am not buying them 
for them. So they have Buffalos.
    Mr. McKeon. Okay. So maybe we need another chart to show 
what we have also versus what we are buying and what we are 
building right now.
    Thank you, Mr. Chairman.
    General Brogan. If I could offer also, sir, I am tracking 
each MRAP that we produce by serial number, can tell you 
exactly where it is in the pipeline, or en route to theater, 
and we update about once a week a pipeline chart that shows the 
flow from industry through Charleston through the motor 
transportation intercontinental, and then transportation 
intratheater from where they arrive to their destination and 
the end state. As I said, our metric for success is vehicles 
fielded to the warfighters.
    Mr. McKeon. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Taylor. The chair thanks the gentleman from California.
    The chair now recognizes the gentleman from Pennsylvania, 
Admiral Sestak.
    Mr. Sestak. Thanks, Mr. Chairman.
    If these questions have been asked, I apologize. I had to 
step in and out.
    Mr. Secretary, can you name a couple of the programs 
presently that are under the DX priority within the defense 
priority and acquisition system?
    Mr. Young. There are additional programs.
    General, do you know?
    General Brogan. The jammers.
    Mr. Young. The jammers are under DX rating.
    Mr. Sestak. Just, I mean, any programs across DOD.
    Mr. Young. I am sorry?
    Mr. Sestak. The jamming?
    Mr. Young. The jamming systems are DX rated.
    Mr. Sestak. Anything else?
    Mr. Young. Can we get you for the record a list of anything 
else that is DX rated?
    Mr. Sestak. Yes.
    The reason I ask is the secretary placed this on the DX 
priority list in June. The requirement for this was established 
a year ago. Should we have placed it on the DX priority list a 
year ago if this is so important, General, for the various 
reasons you have mentioned?
    Mr. Young. The DX rating comes into play when you have a 
conflict, though. It assigns priority when capacity is 
consumed, and it----
    Mr. Sestak. But my understanding is challenges of high-
speed alternators, challenges on tires, challenges on armor, 
you are competing.
    My follow-on question, Mr. Secretary, have we actually, if 
this is such a priority, taken advantage of the special 
priorities assistance that we can go to the Department of 
Commerce under the PASS system and ask them to resolve for the 
good of our troops the competition for these material 
requirements? Has that step been taken, if this is so important 
to us?
    Mr. Young. Well, a board has been formed.
    Mr. Sestak. I know the board. That is an internal----
    Mr. Young. Priority allocation----
    Mr. Sestak [continuing]. DOD board.
    Mr. Young. Right.
    Mr. Sestak. If this is such an important issue and you have 
already highlighted material competition as a problem, why 
wait?
    Mr. Young. Well, we are analyzing the material competition 
issue, and to give you a specific example, as of June, the 
capacity to build tires for MRAPs and--that is really the only 
vehicle that requires this load class and load rating tire--was 
about 1,000 tires per month. Obviously, you can see that if we 
get to 1,300 vehicles per month in December, we need well over 
6,000 or more tires per month.
    The department has gone and worked with industry. We don't 
need those tires today. The department has gone and worked with 
industry. At least two vendors have agreed to increase their 
capacity and build volume for us.
    And then we have worked with the Army Tank-Automotive 
Command and DLA, and we are going to buy tires as fast as they 
can produce them to hopefully get ahead of the mountain that is 
building and pace the fact that they are going to add capacity.
    We are doing a similar activity in steel.
    So, to the degree of our analysis, we have not identified 
issues yet where there--conflicts will emerge. The board has 
been formed so that when conflicts emerge, there will have to 
be priority allocation choices, but we have actually invested 
money to----
    Mr. Sestak. But, Mr. Secretary, why then have you placed it 
on the DX priority list?
    Mr. Young. Pardon me.
    Mr. Sestak. Why did you place it on the DX priority?
    Mr. Young. To assure that there were no impediments, and at 
this point in time, there are no impediments, and what we want 
to do is----
    Mr. Sestak. So you really did not have to put----
    Mr. Young [continuing]. Act to make sure impediments don't 
emerge because we would rather not have steel and other issues 
result in a choice between, say, Strykers or ships or MRAPs. So 
we are taking every step we can----
    Mr. Sestak. So DX priority was merely a precaution?
    Mr. Young. I would not say----
    Mr. Sestak. And if it is, why not take the next step to the 
SBA with Commerce?
    Mr. Young. No, I think that is a reasonable step, and we 
will go back and review the status of that, but, right now, we 
don't----
    Mr. Sestak. The only reason I ask is it just seems, despite 
all the good work, we have been shooting a little behind the 
rabbit on requirements, on funding, and we have watched this in 
pursuing the IED issue from the beginning. It is tough, but I 
don't know if we might want to shoot a little ahead on this. We 
do have some unique tools here that will help the system work 
under the PASS system.
    My second question is when the secretary said we can go at 
1,280 or so a month, did the Defense Contract Management Agency 
(DCMA) agree with that? Were they asked? Again, I am kind of 
addressing the issue of the tyranny of optimism that, 
unfortunately, my experience in the building shows me 
goodhearted people want to do. Was DCMA asked if that was a 
good figure because they are the ones that said 900?
    Mr. Young. For the vehicles that have been put under 
contract--and General Brogan will expand on this--DCMA has 
taken a look with the program office at the ability to produce 
those vehicles. This discussion that occurred over the last 
three years was asking industry to look at based on their 
experience to date, can you build more, and to do so in light 
of the secretary's insistence that we get every vehicle that 
can be built in the hands of the----
    Mr. Sestak. So DCMA has not given an opinion?
    Mr. Young. So I don't believe they have looked in detail at 
the acceleration plan.
    Mr. Sestak. Yes, my experience has been----
    Mr. Young. Can I let General Brogan add to that if he 
wants?
    Mr. Sestak. Please.
    General Brogan. So they were asked, and their preliminary 
estimate, which was given to us a couple of months ago, was 
that we could reach the rate of 977 vehicles per month in 
December, and they admitted to some conservatism in that number 
which is probably a good thing because, as you have indicated, 
optimism is what has me in trouble with the chairman for 
telling him I could do 4,000 vehicles by the end of this year, 
and I take responsibility for that.
    We are asking them now to go back in their industry 
capabilities assessment and review that number, given the fact 
that we have taken some steps to improve tire production, that 
the reprogramming request includes a sum of money to buy steel 
ahead so that we don't reach a hump that puts us above the 
capacity that is able to be produced by industry, yet what is 
required for all of the defense programs.
    So it needs to be revisited, and I will have to let Mr. 
Sydney Pope from Office of the Secretary of Defense (OSD) 
Industrial Policy go back and relook at that number.
    Mr. Sestak. So DCMA needs to look at it?
    General Brogan. Yes, sir.
    Mr. Sestak. All right.
    Mr. Chairman, I had two other questions. Should I hold off 
for the second round or----
    Mr. Taylor. If you don't mind. We have been pretty generous 
on your time. We still have Colonel Wilson and Mr. Davis.
    So the chair recognizes the gentleman from South Carolina, 
Colonel Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, all of you, for being here today, and I am 
particularly pleased that you are here because in my home state 
of South Carolina, we have been very vitally involved with the 
force protection located in South Carolina, General Dynamics, 
Armor Holdings. I will be visiting BAE tomorrow in Akin. I have 
also toured and visited SPAWARS. And everywhere I go, the 
professionals who work at these facilities are very, very 
dedicated to working with you and backing you up.
    And I am also aware that there have been some real 
challenges, and General Brogan in particular with force 
protection, there has been a problem with production output 
difficulties, late deliveries. In your opinion, has force 
protection overcome these choke points in production?
    General Brogan. Not completely, sir. They missed by 12 
vehicles last month, but by the 10th day of this month, they 
had caught up on those vehicles. When I looked at the work they 
have in progress right now, some 342 vehicles, my assessment of 
that is that they certainly have the opportunity to make their 
numbers this month, but it is not a foregone conclusion. We are 
going to continue to watch them.
    As you know, they have formed a joint venture with General 
Dynamics Land Systems that they call Force Dynamics. That 
brings to bear some of the considerable experience of General 
Dynamics in material management and working with vendors, 
suppliers and sub tier folks, and we hope that that will help 
ameliorate some of the concerns that we have with Force 
Protection's ability to deliver so far.
    Mr. Wilson. And I actually visited to have the opportunity 
to see the manufacturer of the Cougar and the Buffalo. I know 
Congressman Davis will be shocked to find out that I actually 
drove them safely, and, indeed, I can see the challenge they 
have of ramping up. We want the best for our military, and so I 
am very grateful that you all are keeping the pressure on.
    Secretary Young, do you see any problems with the 
government-furnished equipment industrial base? Is this 
equipment properly resourced, and is the integration facility 
at SPAWAR prepared to handle this integration effort?
    Mr. Young. I will make a comment. I think General Brogan 
might want to expand on that. But we have chartered a team--the 
program office, I think, has led that effort--to look at the 
government-furnished equipment industrial base, the ability to 
supply, the ability to pace the rate of delivery of vehicles 
because that is critical. Positive signs on that.
    The team has allocated budget for that. They have allocated 
that budget in a lean way because I think, going back to 
Chairman Taylor's comment, the program office--and General 
Brogan can address this in more detail--is managing their money 
to get the maximum number of vehicles on process and marching 
toward delivery.
    Some of those vehicles, in fact, that we buy in 2007, we 
will need 2008 money for sustainment. We are not reserving 
that. So we are allocating the funds for vehicles as the first 
priority, then government-furnished equipment and only the 
things we need in 2007 to get the maximum number of vehicles 
delivered.
    General Brogan. So let me discuss the government-furnished 
equipment piece first. We have cash-flowed from the account 
that we normally would have used to buy the government-
furnished equipment in order to place vehicles on order. That 
is why this reprogramming action is so key to us. We need those 
coffers to be refilled so that we can ensure that as the 
vehicles are delivered that the government-furnished equipment 
is there so that it can be integrated by the professionals down 
there at SPAWAR, the Naval Space Warfare Command.
    With respect to the integration facility, they have a great 
deal of experience. They have worked all of the up-armored 
Humvee integration, and they have translated that experience 
into what we are doing. They map each one of these individual 
variants to ensure that they know the locations for the racks 
and things like that.
    They have some very talented folks that are trained in Lean 
Six Sigma. There are several black belts, as well as green 
belts, with that sort of training that are involved in this 
process to help shorten that timeline of integration. Their 
expectation is that we will be at a capacity of roughly 25 
vehicles per day for integration down there on a single shift, 
and then they have plans, if required, to expand that to a 
second shift so that we could do 50 vehicles per day. So I 
believe they are capable of doing that, but it has yet to be 
proven, sir.
    Mr. Wilson. Well, again, I appreciate your efforts in 
providing the best equipment for our troops. I have the 
perspective of being a veteran myself. Seven years ago this 
week, I was at the National Training Center at Fort Irwin for 
desert warfare training, and I tell you very positively that 
all the equipment I have is now in a museum.
    And, Mr. Chairman, it has been replaced by the latest and 
best equipment, and I want to thank you for your efforts for 
providing that for our troops.
    Thank you, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Wilson.
    The chair now recognizes the gentleman from Kentucky, Mr. 
Davis.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman
    Just listening to the dialogue and going back to some 
comments that were made by Congressman McKeon and Congressman 
Sestak, I have some concerns looking at the way that we have 
moved into this process coming from both a military background 
and also a manufacturing and supply chain management 
background, as we have stepped in, admittedly on short notice, 
with increased costs to accelerate some of the production. I 
know we have talked about ways to mitigate the shortfalls. You 
know, hopefully, dealing with Canadian and French manufacturers 
isn't going to be the long-term answer to our own defense 
supply chain.
    But one question that I have that this symptom points to 
and having heard both sides of the issue off line within the 
military--and I would be interested in both a Marine and an 
Army perspective on this--do you see the MRAP now by default, 
because of the huge investment that is being made in it, 
becoming the default mobility platform for the Marine Corps and 
the Army going into the outyears?
    And I come into this question from Chairman McKeon's 
comment about, you know, the political movement is in one 
direction, logistic and supply chain is moving in another 
direction, we are going to have all these vehicles, and I am 
just curious what the long-term plans are from a doctrinal 
standpoint.
    General Castellaw. The vehicle, as we see it now, is 
addressing a short-term requirement. We are going to get it 
into combat. We are going to see how it operates. We think 
about 3,700 is the right number right now.
    At the same time, we will continue to assess what our 
ground mobility requirement is, and when we talk about 
mobility, there is also a vertical portion of it, the V-22, the 
53K and others. So we will assess where we are going to go.
    This vehicle--some numbers of them--may be what we want to 
retain, but as we look ahead, we have what we call the Joint 
Light Tactical Vehicle, JLTV. How it comes into play is 
something that we are still developing and we will look at.
    So we don't have an answer right now on how long term, I 
think, the MRAP is going to be. We do know that right now it is 
what we need and what is going to save lives and what we need 
in combat, and then we will continue to assess the long term.
    Mr. Davis of Kentucky. So you are saying that this 
investment is an interim adaptation to an immediate threat 
versus part of a long-term procurement program?
    General Castellaw. Well, I think, sir, that as we have been 
in war, we have found whatever war--pick one--whether it was 
Civil War or World War II or now, we have already gone through 
several iterations of vehicles, and as we continue, you know, 
we will improve these. We have spirals already planned for 
these vehicles, and so, you know, we will know more.
    Mr. Davis of Kentucky. General Speakes.
    General Speakes. Sir, I see an identical approach to what 
General Castellaw identified. We are united in a focus on 
saving lives today for soldiers and Marines in combat. We also 
will have to evaluate how combat proves this vehicle to 
actually perform in its general purpose role. We are very 
positive and pretty optimistic on it based upon the clearance 
missions that they have performed for us the last year and a 
half.
    The next issue is how fast can we move technology forward. 
We are focused in linking with the Marines to ensure that the 
Joint Light Tactical Vehicle becomes the future of 
modernization of our Light Tactical Wheeled Vehicle fleet, and 
to do that, we have a paradigm that expresses the request we 
put to industry, which is improve performance, improve payload 
and continue to focus on protection, and we have to have all 
three of those in order to be able to see a future vehicle that 
really attracts us all.
    We fully understand and support the Marines' thought about 
the expeditionary nature of equipment. We, like them, share a 
need to be able to project our capability, and we are going to 
have to look at a vehicle that doesn't have the same cumbersome 
weight capability limitations that we see in MRAP. That said, 
right now, our focus is war, our focus is saving lives, and we 
will keep it there.
    Mr. Davis of Kentucky. Yes. I appreciate your perspective, 
and, you know, I want to commend both services on, the 
adaptability of new systems. As the general mentioned, every 
war, we have seen adaptation. From my own experience--I join 
with Congressman Wilson--when I went through the Junior Officer 
Maintenance Course about 200 years ago, all those vehicles are 
now in the museum as well, and it has been amazing to watch the 
adaptivity of this force.
    You know, for the record, contrary to a lot of the 
political rhetoric that has been floating around that I hear 
from time to time, as we create greenhouse gases over in the 
House chamber, this is clearly the best protected, equipped 
force in the history of the world, and I appreciate your 
efforts to move forward. You know, hopefully, the lessons 
learned out of this will be able to be integrated into long-
term plans to balance both the weight issue and the force 
protection issue.
    I yield back, Mr. Chairman.
    Mr. Taylor. Thank you.
    The chair would like to take this opportunity before I 
recognize Admiral Sestak to publicly thank Colonel Jim Littig, 
United States Army (Retired), who, just as a citizen, came by 
my office a year ago January and walked me through the 
importance of MRAPs, and for the record, I think it is 
important for the average citizen to understand it the way that 
he walked me through it.
    A disproportionately high number of casualties have 
occurred in Humvees. That is because the Humvee has a flat 
bottom, and when that wave of energy from a landmine or from an 
IED explodes, it is like a wave hitting a boat. A flat-bottom 
boat hits that wave, it is going to be thrown back quite a bit. 
A V-bottom boat hits that wave. It is going to slice through 
it.
    In addition to that, if you can increase the distance 
between that explosion and the bottom of your vehicle, the 
force of that blast is reduced exponentially. So if you are 
four feet off the ground, you are going to have significantly 
less exposure to that blast than if you are one foot off the 
ground or 16 inches off the ground.
    I say all this to thank Colonel Littig who at one time 
worked in the Army liaison office, but to also point out my 
disappointment that it was a retired Army officer that made me 
aware of this and that the Rhodesians 20 years ago had found 
the solution and that the Russians or Soviets over 10 years ago 
had found a solution.
    And as a member of this committee, I am the first to admit 
I am not omniscient, that we rely on the suggestions of others, 
and I would have hoped that it would have come from the active 
force that there was something better out there, and I think 
the USA Today article reinforced that.
    So, having said that and having publicly said my 
frustration with what happened with SAPI plates, what happened 
with jammers, what happened with unarmored Humvees, I would 
like to ask Secretary Young, since in each of those instances, 
only reluctantly did the civilian leadership of the DOD finally 
say, ``Yes, we are going to do it for each and every one''--it 
has been said today that we have approximately 19,000 Humvees 
in Iraq--does the Administration have a plan to replace each of 
those vehicles with some variation of an MRAP?
    What is the timeline for that? Where are the dollars you 
require from the United States Congress to make that happen? I 
am of the opinion it is going to happen, and we should not kid 
ourselves that it is not going to happen, that this war is 
somehow miraculously going to go away, and I for one could look 
my constituents and every American in the eye and say, ``Yes, 
we spent a bunch of money and, okay, it ended up we did not 
need them,'' and that would be the best news of all, that 
somehow we bought a bunch of vehicles for a war that ended 
sooner than we thought.
    So what is your plan? Are you going to ask for that money 
in a supplement? Are you going to ask for that money in the 
form of next year's budget request? We have been through this 
before. So what is the plan now?
    Mr. Young. Well, I think Secretary Gates and the leadership 
are committed to revising the budget for what we believe is the 
minimum requirement, is some number like 8,000 vehicles and 
doing that here very shortly, and then over the next few 
months, hopefully by September, determining the success in 
manufacturing the vehicles because, as I think some members 
have said, there is some anxiety about putting money against 
vehicles that you cannot build.
    But if we are having success, then we will take the 
optimistic view, as we are talking with you today, that we want 
to buy and build every vehicle that can be built and bought, 
and money will not be an obstacle. So the secretary's guidance 
to us is to try by September to come to you and the Congress 
and tell you how successful we have been, how many can we 
possibly build in September, what does the theater want in 
terms of that number, and the highest numbers today reflect 
exactly what you have said, one-for-one replacement with 
Humvees.
    I believe if we are successful in getting to December, we 
will be successful in building a very large number of vehicles 
in 2008, and so we will have to bring you a budget amendment 
for supplemental funds to build those vehicles.
    Mr. Taylor. Secretary Young, I hear some good news and some 
bad news. The good news is that you are flying every vehicle 
over there as soon as you get them. That shows me a sense of 
urgency. On the flip side, keeping in mind how many airplanes 
we have and the capacity of those airplanes, versus the ships 
that we have and the capacity of those ships, that also tells 
me that they are rolling off the assembly line in eyedroppers 
when we need to be addressing this with buckets.
    Now, the question is, of these designs that the brigadier 
general is doing a good job of bringing on line, do we own the 
plan at the end of the day? Do we own the specifications? Can 
we take those specifications to Ford, Chrysler, GM, Toyota, 
whoever? Do you have the legal authority to say that this is a 
national emergency? Do you have the legal authority to go to an 
active production plant and say, ``I want you to make these 
things right now.''
    Mr. Young. Can I address two things you commented about and 
then let General Brogan address it?
    One, the initial plans while they are coming out, even at 
hundreds a month, are to take them by air, and then over time, 
we will transition to more by air, but some by sea, and then 
over time, a few more months, we will transition to more by sea 
and some by air because there is--this one I will not be able 
to explain well in a hearing--an optimization that the fastest 
way when you get to significant volumes is to have more go by 
sea in a load, and so TRANSCOM, General Schwartz, has talked to 
us, and they are planning that staged transition to get the 
vehicles there as fast as possible, but cost is not an issue 
with that.
    Second, to the comment that General Brogan can add on, I 
had the discussions with industry from the perspective of, yes, 
we can potentially go buy the data rights, share them with 
other people and stand up other people to build.
    Mr. Taylor. Whoa, whoa. You said potentially. I want to 
know for the record----
    Mr. Young. I am sure we can. We absolutely can.
    Mr. Taylor. For the record, do we own those specs, or is it 
unique to the----
    Mr. Young. I want to let General Brogan answer that, but if 
I could, I went from the perspective of the best possible 
solution is two industry partners, conceivably one person who 
has capacity and/or did not win a contract partnering with 
someone and helping us get vehicles faster so that there is not 
paper changing hands and lawyers involved, with no disrespect 
intended. I wanted partners to help us build as fast as 
possible.
    And then I will let General Brogan answer the question 
because we do have the ability to buy those rights and force 
other solutions.
    General Brogan. Sir, we do not own the data rights, and I 
am not certain at this point in time that that would be in our 
best interests. We continue to evolve the design.
    By way of example, during the testing, one of the 
manufacturers had a problem, and he made a fairly significant 
design to the manner in which he mounted his seats which 
provided significant change in the amount of acceleration that 
was delivered to the anthropomorphic dummy that simulated the 
occupant in the vehicle.
    So, as this technical data package continues to evolve, I 
don't think we want to buy it at this point. Particularly, as 
has been noted, there are additional threats that have to be 
addressed, and so as we incorporate those survivability 
features into the platform, we don't want to own it now and 
then be stuck with someone that is obsolete, if you will. So I 
don't think today is the right time for us to buy that tech 
data package.
    Mr. Taylor. Colonel, again, this is, at this point, water 
under the bridge.
    General Brogan. Sir.
    Mr. Taylor. I can tell you that to the greatest extent 
humanly possible, I think you would find that every member of 
this committee in the future wants to see that for every 
program that this Nation owns the specs, that this Nation has 
unlimited access to take those specifications to any vendor we 
want at any time we want and not be held hostage so that a 
lifesaving vehicle like this is available in only one or two 
places.
    General Brogan. Absolutely, sir, and we have a data rights 
clause----
    Mr. Taylor. It is water under the bridge, but for the 
future----
    General Brogan. I am sorry, sir. I did not mean to 
interrupt you.
    Mr. Taylor. I did not mean to interrupt you. I apologize.
    General Brogan. We have a data rights clause in the 
contract so that we can procure the data rights if we choose 
to. We are not being held hostage, sir.
    Mr. Taylor. The chair recognizes once again the gentleman 
from Pennsylvania.
    Mr. Sestak. I wanted to ask in the larger picture if future 
warfare somewhat has elements of what we see in Iraq or pieces 
of what I think the Marine Corps calls the Three Block War, the 
rapidity by which things happen and by which we have to 
respond. Are there lessons from this MRAP issue for the 
acquisition program?
    It seems to me as though on the one hand we have this need 
for rapidness, whether it is the pursuit of finding and 
destroying IEDs, as we saw earlier, or getting a new protective 
vessel out there as the adversary quickly adapts, and you 
caution us on that in your testimony, there will be something 
else down the line in Iraq. On your other side of your 
acquisition, you have the more traditional approach, which has 
its own challenges, and I have forgotten what the terms are, 
but the AAAV which I think starts with an E now----
    General Castellaw. EFV.
    Mr. Sestak [continuing]. Thank you--or DD(X) which is now a 
DDG, I think, and the cost overruns and the length of time it 
takes. In the middle, we have an LCS, again, its own 
challenges, having to cancel a contract. We tried to bring 
rapidness to the acquisition program of the traditionals in 
this.
    Are there any overarching lessons from any of you to be 
taken from this experience in view of this, at least what I see 
as some picture of trying to get quicker acquisition programs, 
traditional ones quicker, but yet having a challenge to do it? 
And, boy, the adversary is going to turn on a dime tomorrow 
once the MRAPs out there to come up with something else in real 
time.
    General Speakes. Sir, I would certainly agree with your 
point. In fact, we were talking about this very issue with the 
Secretary of the Army and the Chief of Staff of the Army. We 
are contrasting the incredible speed of this program with what 
we see right now is the Future Combat System (FCS) program that 
the Army is trying to put together.
    Here is what I think is very, very important about the 
commendable elements of this program. First, everybody focused 
on a requirements document and got it done very quickly. It was 
focused on initial threshold requirements and then some basic 
identification of objective requirements that would be future 
spirals, but we did not get hung up chasing an ultimate 
solution that was impossible to achieve in the near term. So 
that was step one.
    Step two was the supported commander was involved from the 
start in terms of validating that document, ensuring we were 
putting only what was essential in the document.
    We then went to the testing community and got their full-
fledged support. DOT down through everybody else went right to 
work on this thing in the paradigm of no big test plan, no 
months of staffing a concept of how you are going to test, but 
instead getting right to work, this paradigm of 6-days-a-week-
24-hours-a-day immediate turn of lessons learned, and what 
General Brogan is overseeing of the ability to take lessons 
learned right back to the manufacturer and ensure that they are 
immediately making changes in terms of location of critical 
components to ease fire or other damage issues or crew access 
issues or recovery issues was just dramatic in terms of what 
you could see as the improvement.
    And then the other thing was we did not let a fiscal 
strategy overwhelm us. The majesty of this program right now is 
it is a simple requirement, get as many as you can out the door 
and, frankly, we are going to work the funding as we go.
    And so those elements then of this program are what I would 
suggest the Department of Defense services have to learn from, 
and we have to adapt these very, very stereotypical programs of 
how we do business and make them quicker and effective and 
suited to the warfighter.
    Mr. Sestak. If I could, I would be happy, Mr. Secretary, to 
have you follow up, but if you could in your answer maybe 
address this. In view of that last point you made of fiscal 
issues, the nice way you said it, looking back at maybe the 
fiscal year, the recent emergency supplemental, you talked 
about, you know, do we put money in this or do we put money in 
this.
    Would any of you review the issues of having in--and this 
is, again, a larger point that I always wanted to learn from--
in that emergency supplemental where the Congress added in $4 
billion? Would you in retrospect as king of the day have had 
that in there--anti-submarine helicopters, Navy Steaming Days 
that are traditionally funded in the normal budget, Joint 
Strike Fighter (JSF) that will not be out there until 2012 or 
2013?
    So, when you are assessing in DOD the risk of a man or 
woman's life and how to try and allocate since we will not be 
there, was it worth it? I mean, how should we think about it, 
that those things happen to make it in, but not the $4 billion 
for MRAP in an emergency supplemental bill?
    Mr. Young. I would offer a comment that addresses, I think, 
all the pieces of this. You know this business as well as 
anyone. You can set the requirements bar to a reasonable level. 
That can enable fast delivery, possibly higher quantities and 
lower costs. Or you can set the requirements bar very high. It 
is probably going to lead to slower deliveries, as you have 
said, lower quantities and very high costs. Calibrating that 
part of the process to the adversary is critical. We don't do 
that perfectly well. And then within that, having resources to 
execute, that decision sometimes will be a judgment decision.
    One lesson to me for sure from the MRAP Program is Congress 
provided $800 million in the bridge supplemental, allowed us to 
reprogram $400 million to make $1.2 billion as a cash flow that 
would eventually be paid back. We asked for $1.8 billion in the 
global war on terror (GWOT) supplemental. Congress added 
another $1.2 billion. Vehicles weren't successfully tested. We 
weren't under contract. We could not tell you for sure that we 
would have 3,000 or 4,000 vehicles under contract. We do.
    If Congress had not taken that step to resource the program 
for success, the requirements bar for the program was set at a 
reasonable point to get capability fast. That capability, as we 
have stated, is not a panacea. There is more we need to do to 
that vehicle, but the requirements bar was set at a reasonable 
point, and the Congress did an exceptional job of giving us 
money and believing we would succeed. We could not tell you 
today we were going to be delivering vehicles without those 
ingredients.
    Mr. Sestak. That was well-said. It is just that we are at 
war, and so my questions today had more on, you know, this 
ability to even affect the Department of Commerce, putting 
priorities on rated and unrated contracts priorities and the 
tough decisions you need to make with limited resources, and 
yet we are at war.
    And you are right, Congress added that money in over years, 
but yet we chose other things, if we are at war, than this MRAP 
in that emergency supplemental. And that is kind of, when I 
step on this side--I know the tough decisions over there--tough 
to understand, if I could just say that.
    But I have said I think the testimony today was terrific, 
and I don't say that lightly.
    Thank you.
    Mr. Taylor. The chair thanks the gentleman.
    And just for your information, number one, I want to thank 
each of you, gentlemen, for being here, for your service to our 
Nation.
    It is my intention, should he so wish, to recognize Mr. 
Davis one last time, Mr. Abercrombie one last time, and that 
will be the end of the hearing.
    So if you should, Mr. Davis, request----
    Mr. Davis of Kentucky. Thank you, Mr. Chairman.
    Mr. Taylor. Okay.
    Mr. Davis of Kentucky. I would like to build on something 
that Admiral Sestak brought up in, you know, his comments, and 
having seen some different programs come, some very fast based 
on urgency particularly in the Special Operations Command and 
some very slow in other areas, you know, I hearken back to the 
days when some folks I used to do some work with rolled out the 
first prototype Cobra Attack helicopter in six months from the 
day they took the Huey airframe into the boiler room in Fort 
Worth, Texas.
    That leads me to one comment. I hear from many of my former 
Army colleagues still on active duty right now--and I would 
address the general to this first--is that the common statement 
that I hear throughout the AOR is the uniform military is at 
war and the rest of the government and the Nation is not. Since 
we are talking about being at war, would you comment on that?
    General Castellaw. Sir, first of all, Congress certainly is 
at war.
    Mr. Davis of Kentucky. Well, that is just the normal 
business of the republic, you know, but----
    General Castellaw. Yes, sir, but I wasn't talking about 
your fistfights. I was talking about the fact that you support 
what we are trying to do. You know, within my purview, the 
people that I work with certainly take what we do seriously. 
They know what the objective is. Working with industry, the 
ones that I work with understand the seriousness of the 
business that we are at, and so we have what I feel is a good 
partnership.
    Mr. Davis of Kentucky. I am not disputing the partnership 
there, but if I could defer to General Speakes for a second to 
make a comment on that. The Army is at war, but the rest of the 
government is not or the country.
    General Speakes. Sir, I think you can't point to what we 
have been able to do, to change the whole complexion of how 
soldiers are equipped and how soldiers are organized, and look 
back and realize we have done that for the Army essentially in 
4 years. I mentioned in my opening statement 94 major new 
systems in the last 4 years with your help, $100 billion spent 
to make this happen.
    Mr. Davis of Kentucky. I appreciate that, General, and, 
again, remember my prior comments. I have been extraordinarily 
complimentary of the military's ability to adapt in what I 
consider a bigger national problem. A very small percentage, 
literally less than one percent, of our population is in 
uniform. Virtually none of it is connected to the military 
personally. Their view of the military is informed by 
Hollywood, albeit regrettably, or what they see on the evening 
news.
    And this is where I, you know, direct the question to the 
secretary. We have had a lot of back-and-forth and programmatic 
information. We talk about spending regulations, how we are 
going to accrue funds, things like that. At the moment, that is 
largely irrelevant because when I go back to the 4th District 
of Kentucky, when I am going different places around the 
nation, when I took my kids to Disney World in February and 
talked with hundreds of people from around the country where 
the war became a subject of discussion, that is something over 
there.
    And at the end of the day, it is amazing to me with the 
MRAP technology that it took this long to get the coalition 
together to begin to move in that area. This has nothing to do 
with the military, but coming back under the civilian side. I 
happen to believe that the Nation is not at war. The military 
is fighting one.
    But my curiosity is what you have shared or what the 
Administration really needs to do to educate this Nation that 
we are at war, that we require the sacrifice of our people and 
that we need to prepare for a long and challenging struggle 
that is not simply going to go away with a few pieces of 
legislation. Our force is stretched.
    I don't hear people in the Administration or in the Defense 
Department, particularly in the prior regime, coming out and 
publicly saying, you know, we can build these new systems. But, 
at the end of the day, what are we doing to educate the 
American people who are more than willing to sacrifice, you 
know, if we could take over 400,000 casualties in 3 years and 
people accept that and the rate of loss right, albeit tragic in 
each one, is consistent with what our annual losses in life of 
friends of mine and others have been each year since the late 
1970's.
    What is being done in DOD to educate the American people or 
to push this Administration to talk--credibly, I might add--to 
the Nation to get their unanimity in what needs to be done 
beyond these arcane arguments of support the troops or don't 
support the troops?
    Mr. Young. I think it is just a message we have to take 
home. You know, the answer I can give you with regard to the 
hearing topic is I believe I can say from my experience here in 
running the task force for a little more than a month, the MRAP 
Program Office, the team in Aberdeen and the industry partners 
are acting like we are at war. I think there is more we can do 
in other elements of the----
    Mr. Davis of Kentucky. No doubt about your sense of 
urgency. I am not going to doubt that for one minute. Do you 
believe that the Administration has adequately communicated to 
the American people the national security urgency of real 
integrated support in a credible fashion?
    Mr. Young. You know, across the spectrum, I can adjust, but 
from briefing Secretary Gates Friday to have a reprogramming to 
you on Tuesday and a hearing before you on Thursday, that is 
fast and that is the Secretary of Defense personally leading 
the charge.
    Mr. Davis of Kentucky. I am not disputing that. I am asking 
you a personal opinion right now. Has the Administration 
adequately communicated to the American people what we are 
really facing for the long term and why? Again, I go back to my 
Disney World example. Most of the folks who were going on the 
various rides and taking their families and living their lives 
have no idea why we are having these debates, and I applaud the 
urgency of dealing with this, but I think the bigger issue from 
a civil military standpoint, the military is carrying out their 
mission, but do the American people understand?
    And I think just as a civilian leader, I just appreciate 
your opinion. Do you feel that the Administration in general 
has done a good job to explain to the American people why we 
are in what we are in, since it is not going to be an either-
or? I don't think anybody on this committee believes we are 
going to walk out, simply walk away or stay the course in some 
oversimplified fashion because of the vast stakes that the 
Nation faces right now.
    I think your silence is actually a very powerful answer at 
the moment.
    Mr. Young. I don't mean it to be.
    I worked on the piece of the business. I am the director of 
defense research and engineering. I chair the MRAP Task Force. 
I work those issues very hard, and I urge my team to be 
conscious that we need technologies in the hands of the 
warfighter for the war today.
    There have been people on the Congress and in the private 
sector that have been concerned that we have moved money out of 
research and into getting things in the hands of the 
warfighter, and I have said, ``You should not be uncomfortable 
with that. We may shift some research and development funds to 
get things in the field because this is a Nation at war,'' and 
I believe up my leadership chain, people are trying to 
communicate that message.
    Whether they use the right words and whether we have 
successfully gotten the public to understand that we are at 
war, and on the back end of this war, we have asked a lot of 
our men and women who serve in the equipment they use and there 
will be costs to reset those equipment pieces. I am not sure we 
have gotten that message across as robustly as need to, and we 
are trying to do that.
    Mr. Davis of Kentucky. Okay.
    Thank you, Mr. Chairman.
    Mr. Taylor. The chair thanks the gentleman from Kentucky.
    And the chair would reiterate that he will recognize the 
gentleman from Hawaii, and this will be the end of the hearing.
    Mr. Abercrombie. Mr. Young, I think you are interested in a 
clean getaway, right?
    Mr. Young, your background is considerable. I am pleased 
you are here actually because of the question that is going to 
evolve from my discussion with you. Your background is good for 
where I want to go with this, having been with the 
Appropriations Committee and defense-oriented, and I think you 
did some budget analysis as well as program work, right----
    Mr. Young. Yes, sir.
    Mr. Abercrombie [continuing]. In your previous life? So 
your appointment here, in effect, I am going to say is like a 
civil servant as opposed to a political appointee. That is what 
I am driving at. I don't consider you a political appointee in 
that sense, and in that context is where I would like to have 
our discussion. In other words----
    Mr. Young. I am prepared to staff the committee, Mr. 
Chairman.
    Mr. Abercrombie. Pardon me.
    Mr. Young. I am prepared to staff the committee, Mr. 
Chairman.
    Mr. Abercrombie. Yes, exactly, but, I mean, the staff that 
we have is professional. They don't have an ideology. I mean, 
they have their political views and so on, but the point is 
that the information that we get and the perspective we get is 
based on professional judgment. I am pleased that I am speaking 
to you in your present position, and I take it that you are 
there because it has been decided and asked of you that you 
exercise the kind of judgment that you indicated before.
    And the reason I seize on that is I was very interested in 
a phrase that you used that this was a judgment decision in 
response to a couple of the questions that were posed to you, 
and I want to bring that up because I want to move into the 
Category I and Category II acquisition strategies.
    Now, again, in the context of all the answers that have 
been given, which I think have been thoughtful and careful and 
very straightforward as to what the difficulty is--and I see 
General Brogan beginning to smile a little bit because you 
maybe see where I am going--I understand what your difficulties 
are in trying to figure out where to go and what to recommend.
    Yesterday, very unfortunately--and you don't have to answer 
for this, but I am citing it as background for some of the 
difficulties we have. I don't know where the hell this person 
comes from--somebody representing the Department of Homeland 
Security apparently following up on the gut decisions that 
Secretary Chertoff operates on decided to say on national 
television, speaking for the Department of Homeland Security, 
that we are considering invading Pakistan.
    Now how Homeland Security gets to do this or some political 
appointee in Homeland Security gets to put out to the public, 
as Mr. Davis was saying, that we may just invade Pakistan 
because we don't have enough to do at the present juncture is 
beyond me, but that gets out into the atmosphere. It gets out 
into the political ether.
    Now the reason I focus on that is not so much to throw 
brick baths at somebody in the Administration who decided maybe 
invading Iran isn't enough, we ought to go at Pakistan while we 
are at it. General Brogan, very, I think, succinctly put it. 
His phrase was there are additional steps which may need to be 
addressed, rather than just focusing on Iraq or Afghanistan, 
and the reason that--and you, General Speakes, whom, by the 
way, I want to say parenthetically, have provided invaluable 
information and perspective to me in the course of events over 
the past several months since I have been chairman. We have 
probably had more contact with each other than with some of the 
other folks, and I want to go on record as saying how 
appreciative I am of your candor and your ability to summarize 
situations.
    I will give you a good example of your ability. You said 
that with regard to the MRAPs that your criteria for deciding 
where to go with the Army's acquisition is to be quicker, 
effective and suitable to the warfighter, which I thought was 
very, very important, with regard to pronouncements like 
``Let's go invade Afghanistan.''
    The reason I bring that up is under the multiple MRAP 
vehicle material that you folks have provided to us and the 
Category I, II and III--and forgive me if I go over this a 
little bit because people who are tuning in may not be familiar 
with the details as we might be--the MRAP Category I is to 
support in an urban environment and restricted confined spaces, 
and the MRAP II, the Category II, are reconfigurable vehicles 
for multi-mission operations, like convoy leads, troop 
transport, explosive ordnance disposal, even ambulance work.
    The Category III is really another category entirely that 
affects more the Marines than the Navy, I think, your IED 
clearance operations and combat engineering, that kind of 
thing.
    So the principal focus that our memorandum from our 
professional staff, Secretary Young, has to do with 
``maximizing the number of vendors for production as a bridge 
until MRAP vehicles complete the first phase of test and 
evaluation.'' The principal focus of the acquisition so far and 
the sole-source contract has been the Cougar vehicle, a couple 
of hundred of those, and then the 80 Buffalo vehicles are the 
Category III, and the totals before the ramp-up, as Chairman 
Taylor has indicated, is a lower number than where we are going 
to go.
    But if that is the case, here is what bothers me--not 
bothers me, but what I am moving toward and why I had all these 
preliminaries--is our memorandum from our staff says that the 
program office is expected to solicit in terms of the request 
for proposals going forward. So, by the end of the month, a 
focus on MRAP II vehicles, which I presume is either the Cougar 
or a variant on the Cougar, within that category, that ``would 
move faster, better protect troops against EFP, the explosively 
formed projectiles, and in some cases carry more armor, all 
requirements based on lessons learned from the wars in Iraq and 
Afghanistan.''
    And under the history, the Cougar, as I say, has been the 
main vehicle, but that is not the only one in those Categories 
I and II because there are a lot of variants in there, and the 
focus is on IED resistance or EFP resistance and, of course, 
are much--I am not going to say complicated--heavier, they are 
larger, they are more difficult than the Humvee.
    And what I am concerned about is if there is a requirement 
to go into areas other than the kind of confined circumstances 
you might find in Baghdad, that you might find in other areas 
like Iran or in Pakistan. Believe me, I don't want to do this, 
but if you find yourself in a situation like Pakistan, that is 
not the same deal, and you are going to need much different 
troop transport circumstances to be met.
    And so I am very concerned about where we are going to find 
ourselves because we are trying to react to circumstances which 
cause public consternation and congressional consternation, 
that you find yourselves going in a direction of acquisition 
that doesn't give you the kind of vehicles you really need for 
other circumstances.
    Now the reason I have gone into this at such length is I 
want you to know, at least as far as this member is concerned, 
we can try to be flexible like you need to be flexible in terms 
of providing the kind of funding for quite a variety of 
vehicles that need to be forthcoming. I just don't want 
quantity, in other words, in order to say, ``Well, we 
responded. The Congress was yelling and, you know, there was a 
lot of weeping and gnashing of teeth about vehicles, so we 
picked one and then we are going to produce as many of those as 
we can,'' if you don't think operationally that those are the 
kind of vehicles that you may need for the kind of 
circumstances you may be facing in the near future.
    So what I want to know is, Secretary Young, do you think 
you have the kind of flexibility in terms of acquisition 
strategy? And by acquisition strategy, I mean the funding and 
the selection of the vehicles. Do you think you have done 
enough testing and evaluation to know the kind of vehicles that 
are likely to be available? Do you have enough flexibility in 
terms of funding and enough flexibility in terms of the kind of 
vehicles that you think are going to be capable of meeting any 
contingency that any of the three generals to your left can 
recommend about the circumstances they are likely to be facing? 
Do you have it or not?
    Or do we need to do something in addition to what the 
chairman is suggesting in order to enable you to do that 
because we don't want to micromanage, we don't want to macro-
manage, we don't want to tell you what kind of vehicles to be 
making or not making or what the circumstances should be, but 
we find ourselves doing that by default if we don't have this 
very clearly set forward and put into legislation.
    Mr. Young. That is a great question, Mr. Chairman. I will 
try to give you a direct answer, and I will say what I said in 
one of the task force meetings.
    I am willing in this reprogramming to put any number of R&D 
in that reprogramming so we have the resources, going back to 
the answer I gave Congressman Sestak. You cannot do things 
without resources and dollars. We can come back and ask again, 
but here is a shot to ask for what we need to go test 
components, energy-absorbing seats, all other materials we 
could put in these MRAPs and allow people to propose other MRAP 
designs that did not come through the first round, and we could 
look at them and test them because these MRAPs, as we said, are 
not a panacea.
    There was a requirement set. They will survive certain 
things. They are not capable against everything the threat can 
throw against us, and we know the threat may throw some of 
those additional things against us. We should be out developing 
and testing against that. We have some dollars to do that now, 
and the program office team is doing that. We have some money 
in the reprogramming to do more.
    And the candid answer to your question--I said it in the 
task force, and I will say it again--is that may be the right 
amount of money, but I would not want to be short and have an 
opportunity to put additional protection on these vehicles or 
make changes to these vehicles or even buy a different vehicle 
if one proved to be significantly more capable.
    Mr. Abercrombie. And in that context, if you are dealing in 
mountain passes and snow, you are dealing with an entirely 
different situation than being in 130-degree heat in close 
circumstances in a neighborhood that is 4,000 years old.
    Mr. Young. Right. And I think, to answer that question, 
there is something you have rightly pointed out that is bigger 
than MRAP. It has been mentioned a time or two today, the Joint 
Lightweight Tactical Vehicle. The department needs some 
resources in that area because of the requirements. As you 
heard today, we would like to have a light vehicle, a very 
agile vehicle, and you would like that vehicle to withstand 
IEDs and EFPs.
    That is a pretty small space. I am not even sure there is 
anything in that set that may be the null set, so the 
acquisition team, industry and the requirements community have 
to talk about how close we can get to having a very light 
vehicle, a very maneuverable vehicle, a fast vehicle that can 
survive an aggressive threat.
    Mr. Abercrombie. Well, I appreciate the time, and I will 
try to end this as quickly as I can. But we don't have you here 
every day so we want to take advantage.
    I understand that in terms of requirements. What I am 
concerned about--and by extension certainly Chairman Taylor is 
concerned about--is the actual logistics of production. Mr. 
Davis has pointed out we are not fighting a war. Some people 
are fighting a war. Some of the manufacturers are geared up. 
Some people are having to do it. But the country is mostly 
watching TV and concerned about whether or not baseball players 
are on steroids.
    So, you know, whether you have the flexibility to be able 
to do this is an open question because I am not sure the 
manufacturing lines can handle or the manufacturers can handle 
the range of flexibility that is going to be required to give 
you the kind of vehicles that you need under these varying 
circumstances. That is what my question is.
    Do we need to provide legislatively anything more to you to 
enable the private-sector manufacturers to be able to conduct 
the business that is necessary?
    Mr. Young. I think we should take that away and think about 
it, and if there are comments to offer today, we have some of 
those dimensions right now. The team has Indefinite Delivery/
Indefinite Quantity contracts at firm, fixed prices with the 
vendors, and we have several vendors. These vendors know we can 
make a choice along the way to stop buying from them and buy 
from someone else. That is a big incentive. There are multiple 
vendors so we can talk to each different one about, ``Well, are 
there things you can do to your vehicle to deal with some of 
the broader spectrum of issues you are talking about, show them 
to me, and let me decide if I want to buy them'' is helpful----
    Mr. Abercrombie. I agree with that, but I don't want to 
have it out there as a threat. What I am saying is we may have 
to recognize as a Congress that we are going to have to pay for 
some of this, that we are going to have to go to manufacturing 
and say, ``We are going to pay you to stay open.''
    Look, we subsidize farming. We put money out there. We make 
an investment in farming to say, ``We want to make sure we have 
soy beans and wheat and corn'' or whatever and ethanol and all 
the rest, and we put money into it, and it is controversial. 
People raise hell about it. ``Why are you giving all the money 
to these guys to make sure that they grow?'' Well, we even pay 
people not to grow food.
    Now it seems to me if we are talking about the lives of the 
warfighters, we may have to pay manufacturers to stay open, and 
not because they are competing as they would ordinarily in the 
market. There is no social utility here. You know, we are not 
dealing with a situation where we have to fulfill somebody's 
ideological preconcepts about what is ideologically acceptable 
in economic theory. We are talking about whether we support 
warfighters or not.
    We keep people working building submarines because you 
cannot put the workforce that can build the kind of submarines 
we have today in a freezer somewhere and then pull them out and 
put them in some kind of an economic microwave so that they can 
go build more submarines.
    If we are going to maintain a certain industrial base 
here--and when I get out of these hearings and what I get out 
of these briefings that we have had--the Congress may have to 
provide, particularly when it comes to the vehicles that move 
troops, an industrial base that is not subject to ordinary 
competition, ordinary ``Well, you know, you can build a better 
cell phone than somebody else so you stay in business and the 
other guy goes out of business.''
    When I take a look at the varieties that are here that you 
think are required for the various missions that the three 
generals have outlined here today and elsewhere, I don't think 
we have the industrial base capacity right now to be able to do 
this with the kind of flexibility required with the varying 
missions that may or may not face you, and it may be that we 
are going to have to provide for that and provide funding for 
that and tell people, ``Yes, we are going to keep people in 
operation and pay for it, and it is not subject to ordinary 
competition.'' Am I making----
    Mr. Young. Yes, sir.
    Mr. Abercrombie [continuing]. Sense and am I making my 
point clear?
    Mr. Young. And I would offer a comment. I think that is an 
excellent discussion. It is clearly a much bigger hearing. I am 
not sure this is the most urgent area for that issue. What I 
have heard from some of the companies and their leadership is 
``We are leveraging a significant large base of production 
capability in the commercial heavy truck business. I have been 
told by a couple of CEOs there has been some downturn in that 
commercial truck business, so the bad news for us is that we 
are facing devastating losses and we need these vehicles.
    The only small positive is that base has the ability to 
produce and can turn to and build MRAPs now for us. So we have 
a chance of not being in conflict with the commercial sector 
right now, and that commercial business base will stay and will 
always. As General Brogan said, these are basically very large 
heavy trucks. There are other pieces with the defense secretary 
where we do need to look very hard at this Nation's ability to 
sustain the organic capability to produce those defense systems 
because there is virtually no commercial----
    Mr. Abercrombie. Last thing on that. I agree with that, but 
just because somebody has a big name, a big corporate name, 
doesn't mean that they have the infrastructure commensurate 
with the name.
    Mr. Young. Yes.
    Mr. Abercrombie. You could be dealing with General Dynamics 
or BAE, but the actual manufacturing investment that they have, 
the actual plant capacity, the actual number of people working 
may be quite small. It may be a little part.
    And some of the big truck manufacturers don't want to get 
into this because we don't have, for example, capital 
budgeting. You know, they make long-term investments. They are 
thinking, ``Hell. That is great. Yes, we make these MRAP 
vehicles for a year and a half and then the contract disappears 
and we are left holding the bag, so we don't want to get into 
it in the first place.''
    So my fundamental point is--and I don't think the uniformed 
services really need to comment on this. I mean, this is a 
policy question. This is a policy question--if we don't want to 
put the uniform services into the position of having to run 
around looking to see whether or not there is somebody that can 
produce the kind of vehicles in the short-term that we need, 
that we don't have because we were going in another direction, 
for good reasons, then we have to be prepared from an 
industrial base point of view to be able to turn on a dime and 
go in another direction.
    It is easy for me to say. It is very hard to do, as has 
been evidenced by the conversation we have had today. It is 
very hard to do practically in terms of actually getting 
vehicles built and variations put into effect and changes made. 
So what we really need back from you and what the chairman, I 
think, needs most of all is a game plan for infrastructure 
flexibility, what the true costs of that are going to be and 
then what the Congress needs to do to facilitate that.
    My guess is a lot of it can be done administratively and in 
terms of budgeting by us and we don't need much in the way of 
legislation. That is my guess. I think most of the legislation, 
acquisition authority and all that kind of stuff already 
exists. I think this is principally a policy question and a 
political decision that needs to be made in terms of spending 
by the Congress.
    Mr. Young. Maybe I could privately offer you a couple more 
points that I think will be aligned to what you are saying.
    Mr. Abercrombie. All right. I appreciate the fact that you 
are in the position that you are in, and I appreciate the 
responsible answers you have given as opposed to some of the 
public pronouncements that I mentioned earlier.
    Could you carry a message to Secretary Gates and ask him to 
ask the Secretary of Homeland Security to do things like making 
sure he can tell when visitors' visas are up before he gets us 
involved in World War III or IV?
    That is an editorial comment.
    Thank you.
    Mr. Taylor. Okay. Again, I want to thank each of you 
gentlemen. You have been very generous with your time. I think 
you have been very forthright with us.
    Secretary Young, I did ask you some very direct questions 
on how many vehicles, how much money, is your goal a one-for-
one replacement. I understand that is not something you can 
tell me off the top of your head, but I would like to know now 
what is a reasonable amount of time that I should expect before 
I hear from you on that.
    Mr. Young. Well, my understanding from the leadership is 
that we should hopefully by maybe even next week tell you what 
it will take in the supplemental to buy roughly 8,000 vehicles 
and then tell you that in September we are going to update that 
for how many vehicles we want in fiscal year 2008 and how much 
money that will take.
    Mr. Taylor. Remember, I am talking a one-for-one 
replacement.
    Mr. Young. Yes, sir.
    Mr. Taylor. So is hearing from you by next Thursday a 
reasonable request? Tell me what is a reasonable request and 
then stick to it.
    Mr. Young. I know, Mr. Chairman, you have highlighted a 
couple of times the civilian aspect of this, but there is a 
military aspect to this. Secretary Gates has charged the Joint 
Staff and the Army Chief of Staff and the Marine Corps 
commandant to determine their near-term and long-term vehicle 
requirements, and if that ends up being everybody says the 
requirement is one for one, I believe the leadership is going 
to try to support that requirement and buy those vehicles and 
come to you and ask you to support that requirement.
    Mr. Taylor. You have been generous enough to listen for 
three hours. With three other programs, the Nation tried to do 
it on the cheap only to discover they had to do a one-for-one. 
You will eventually come to this conclusion on this program. 
Let's don't have one kid needlessly lose his limbs. Let's don't 
have one needless loss of life. I am asking a direct question. 
When can I reasonably expect an answer from you? Is a week 
enough time for you to get those numbers? If not, tell me how 
much.
    Mr. Young. I want to try to understand what you are asking 
of me.
    Mr. Taylor. Sure.
    Mr. Young. I have essentially now almost a blank check from 
the Joint Staff, buy as many vehicles as you can as fast as you 
can, and then if the Joint Staff wants to evaluate their need 
along the way, if I told you a number, it would mean nothing 
relative to a need for the theater and the Joint Staff to say, 
``This is what we think we operationally need,'' and I don't 
know how to tell you on what day they will give me that answer 
so I can parrot it back to you.
    Mr. Taylor. I am going to request that within ten working 
days, which I think is very generous, that you supply that 
information, and if you cannot, you are basically telling this 
committee that it is not your goal to replace them on a one-
for-one basis.
    The second thing I did ask very pointedly is: Do you have 
the legal authority under the Use of Force resolution that 
passed this Congress to get us into these conflicts? Do you 
have the legal authority right now to go to an automotive or a 
truck plant and say, ``Our Nation needs your assembly line to 
make this product.'' Do you have it under the existing Use of 
Force resolution? That is a yes or a no. And, again, I would 
like to know within ten days. And if you do have it, I would 
like to know that section of the law for future reference.
    Mr. Young. I would like to give you that. I don't know the 
answer to that question, sir.
    Mr. Taylor. Yes, and I hope I am giving you an adequate 
amount of time.
    Mr. Young. But we can get that answer certainly within ten 
days or less.
    Mr. Taylor. And I thank each of you gentlemen for devoting 
a huge percentage of your lives to serving our country, for 
being here today.
    And with that, this meeting is adjourned.
    [Whereupon, at 12:47 p.m., the subcommittees were 
adjourned.]



=======================================================================




                            A P P E N D I X

                             July 19, 2007

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 19, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 37890.001
    
    [GRAPHIC] [TIFF OMITTED] 37890.002
    
    [GRAPHIC] [TIFF OMITTED] 37890.003
    
    [GRAPHIC] [TIFF OMITTED] 37890.004
    
    [GRAPHIC] [TIFF OMITTED] 37890.005
    
    [GRAPHIC] [TIFF OMITTED] 37890.006
    
    [GRAPHIC] [TIFF OMITTED] 37890.007
    
    [GRAPHIC] [TIFF OMITTED] 37890.008
    
    [GRAPHIC] [TIFF OMITTED] 37890.009
    
    [GRAPHIC] [TIFF OMITTED] 37890.010
    
    [GRAPHIC] [TIFF OMITTED] 37890.011
    
    [GRAPHIC] [TIFF OMITTED] 37890.012
    
    [GRAPHIC] [TIFF OMITTED] 37890.013
    
    [GRAPHIC] [TIFF OMITTED] 37890.014
    
    [GRAPHIC] [TIFF OMITTED] 37890.015
    
    [GRAPHIC] [TIFF OMITTED] 37890.016
    
    [GRAPHIC] [TIFF OMITTED] 37890.017
    
    [GRAPHIC] [TIFF OMITTED] 37890.018
    
    [GRAPHIC] [TIFF OMITTED] 37890.019
    
    [GRAPHIC] [TIFF OMITTED] 37890.020
    
    [GRAPHIC] [TIFF OMITTED] 37890.021
    
    [GRAPHIC] [TIFF OMITTED] 37890.022
    
    [GRAPHIC] [TIFF OMITTED] 37890.023
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 19, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 37890.024
    
    [GRAPHIC] [TIFF OMITTED] 37890.025
    
    [GRAPHIC] [TIFF OMITTED] 37890.026
    
    [GRAPHIC] [TIFF OMITTED] 37890.027
    
    [GRAPHIC] [TIFF OMITTED] 37890.028
    
    [GRAPHIC] [TIFF OMITTED] 37890.029
    
    [GRAPHIC] [TIFF OMITTED] 37890.030
    
    [GRAPHIC] [TIFF OMITTED] 37890.031
    
    [GRAPHIC] [TIFF OMITTED] 37890.032
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             July 19, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SHUSTER

    Mr. Shuster. What is the Department of Defense doing to leverage 
investments in depots/arsenals and use the military organic base, in 
partnership with industry, for increased production and sustainment of 
the MRAP?
    Mr. Young, General Brogan, General Castellaw, General Speakes. The 
MRAP program is utilizing both Army Depots (Red River Army Depot 
(RRAD)) and Marine Corps Depots (Albany and Barstow) as a source of 
trained mechanics who are currently deployed (Barstow) and will be 
deployed (RRAD) in support of MRAP sustainment. The scope of these 
efforts is to develop field-level maintenance expertise to include 
Battle Damage Repair. Mechanics will be embedded with the unit to 
provide augmentation and OJT for a period of 45-60 days. All MRAP 
contractors are providing up front training for these mechanics and 
have agreed to work with the depots to ensure system level knowledge. 
Both contractor-provided Field Service Representatives and Government 
mechanics/technicians deployed in the field submit routine reports of 
deficiencies which are analyzed and used to improve production quality 
which works to improve throughput to the field.
    Mr. Shuster. Will the Defense Contract Management Agency (DCMA) 
evolving capabilities assessment of industrial capabilities to support 
the MRAP include an assessment of how military depots can support MRAP 
production and sustainment?
    Mr. Young, General Brogan, General Castellaw, General Speakes. 
Answer: The purpose of DCMA's MRAP Vehicle Industrial Capability 
Assessment is to identify and validate private sector suppliers' 
ability to support the MRAP Vehicle production schedule requirements 
and to identify potential shortfalls. DCMA was not requested to assess 
military depot support to MRAP sustainment.
    Mr. Shuster. How does the Department of Defense plan to sustain and 
maintain the MRAP and what depots are currently involved in that 
planning process?
    Mr. Young, General Brogan, General Castellaw, General Speakes. Due 
to the urgency of the requirement and the Commercial-Off-the-Shelf 
(COTS) nature of the vehicles, MRAP vehicles will initially be 
sustained and maintained via Contractor Logistics Support (CLS). 
However, we will conduct a Depot Level Source of Repair (DSOR) analysis 
and a core logistics capabilities assessment, which will also consider 
Performance Based Logistics and public--private partnerships in 
determining the most effective and efficient sustainment support. 
Potential depot support facilities, such as the Army's Red River Depot, 
Tobyhanna, and the Marine Corps logistics depots at Albany, Georgia, 
and Barstow, California, and others will be considered as part of this 
analysis.
    In addition, the MRAP program is utilizing Defense Logistics Agency 
(DLA) centers to support organic supply chain management of MRAP spare 
and repair parts. DLA is also fully integrated in the parts 
identification, cataloging and provisioning efforts for MRAP spares. 
DLA is currently assessing requirements to store spares in the AOR to 
support the MRAP program.
    Mr. Shuster. What actions is the Department of Defense taking to 
encourage contractors to work with military deports and take full 
advantage of the facilities, equipment, and skilled workers there to 
support MRAP requirements?
    Mr. Young, General Brogan, General Castellaw, General Speakes. We 
will work with potential depot supporters to identify and evaluate 
public-private partnership alternatives during our upcoming Depot Level 
Source of Repair analysis. Currently, FPI, an MRAP product vendor, is 
teamed with the Marine Corps Logistics Base at Albany, Georgia in the 
production and sustainment of USMC MRAP vehicles.

                                  <all>

</pre></body></html>
